APPENDIX A
Order Denying Certificate of Appealability
Filed July 13, 2020

Case: 20-15820, 07/13/2020, ID: 11750704, DktEntry: 7, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
JUL 13 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

20-15820

D.C. No. 1:11-cr-00479-JMS-1
District of Hawaii, Honolulu

v.
ORDER
KENNETH SCOTT GORDON,
Defendant-Appellant.
Before:

SILVERMAN and COLLINS, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 4) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX B
Order Denying 2255 Motion
Filed March 27, 2020

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 1 of 12

PageID #: 2640

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII

UNITED STATES OF AMERICA,

CR. NO. 11-00479(01) JMS
CIV. NO. 18-00198 JMS

Plaintiff/Respondent,
ORDER (1) DENYING
DEFENDANT’S REMANDED
MOTION UNDER 28 U.S.C. § 2255
TO VACATE, SET ASIDE, OR
CORRECT SENTENCE BY A
PERSON IN FEDERAL
CUSTODY; AND (2) DENYING A
CERTIFICATE OF
APPEALABILITY

vs.
KENNETH SCOTT GORDON,
Defendant/Petitioner.

ORDER (1) DENYING DEFENDANT’S REMANDED MOTION UNDER 28
U.S.C. § 2255 TO VACATE, SET ASIDE, OR CORRECT SENTENCE BY A
PERSON IN FEDERAL CUSTODY; AND (2) DENYING A CERTIFICATE
OF APPEALABILITY
I. INTRODUCTION
On October 29, 2018, this court denied Petitioner Kenneth Scott
Gordon’s (“Gordon”) Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence by a Person in Federal Custody (the “§ 2255 petition”). See ECF
No. 284 (Cr. No. 11-00479(01) JMS);1 United States v. Gordon, 2018 WL
5499532 (D. Haw. Oct. 29, 2018) (“Gordon III” or “the October 29, 2018 Order”).

1

For administrative purposes, the § 2255 petition was filed both in the underlying
criminal matter, Cr. No. 11-00479 JMS, and in a separate civil matter, Civ. No. 18-00198 JMS.
This order refers to filings in the docket from the criminal matter.
1

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 2 of 12

PageID #: 2641

Gordon’s § 2255 petition raised two grounds for post-conviction relief: (1) error in
denying his motion to suppress evidence from a duffel bag and wallet, and
(2) constitutionally ineffective assistance of appellate counsel. See ECF No. 272.
The October 29, 2018 Order denied the § 2255 petition (1) with prejudice as to the
motion to suppress because the issues had been raised (and rejected) on direct
appeal, and (2) without prejudice, for lack of jurisdiction, as to ineffective
assistance of appellate counsel because the court concluded that only the Ninth
Circuit could offer Gordon the specific relief he sought (vacating his conviction,
exclusion of evidence, and/or release on bond) where such relief depended upon
whether appellate errors would have affected the Ninth Circuit’s decision on his
direct appeal. See ECF No. 284 at PageID #2556.
Nevertheless, on December 13, 2019, the Ninth Circuit vacated the
October 29, 2018 Order and remanded the claim of ineffective assistance of
appellate counsel for this court to consider its merits in the first instance,
explaining that “[s]hould Gordon’s claim have merit, the district court can grant
relief by vacating Gordon’s judgment of conviction.” ECF No. 296 at PageID
#2633; United States v. Gordon, 787 F. App’x 476, 477 (9th Cir. Dec. 13, 2019)
(mem.) (“Gordon IV”). 3 After the Ninth Circuit issued its mandate, ECF No. 297,

3

It appears odd that a district court judge would have the power to vacate a conviction
based on the specific claims of ineffective assistance of appellate counsel brought here—waiving
(continued . . .)
2

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 3 of 12

PageID #: 2642

the parties agreed at a February 13, 2020 status conference that this court should
decide the remanded claim without an evidentiary hearing, without further
briefing, and based on the existing record. See ECF No. 299.
Accordingly, the court has further reviewed the arguments of the
parties and the existing record—including the Declaration of Georgia K. McMillen
(counsel on direct appeal) and associated exhibits, ECF Nos. 277-1 to 277-3—and
DENIES the § 2255 petition. Gordon has not met his burden to demonstrate that
he was deprived of constitutionally effective assistance of appellate counsel.4
II. BACKGROUND
The underlying facts of Gordon’s criminal conviction and sentence
are adequately set forth in (1) the court’s September 10, 2012 Order denying his
motion to suppress (see ECF No. 105, United States v. Gordon, 895 F. Supp. 2d
1011 (D. Haw. 2012) (“Gordon I”)); (2) the Ninth Circuit’s memorandum
disposition affirming his conviction on direct appeal, including affirming the
court’s denial of his motion to suppress (see ECF No. 267, United States v.
Gordon, 694 F. App’x 556 (9th Cir. July 24, 2017) (“Gordon II”), cert. denied, 138
S. Ct. 434 (Nov. 6, 2017)); and (3) the court’s October 29, 2018 Order denying his

oral argument before the appellate panel, deciding not to file an optional brief before the panel,
and failing to seek en banc review or certiorari—rather than, for instance, permitting a new
appeal for a meritorious claim.
4

The court’s October 29, 2018 Order denying relief as to the motion to suppress was not
certified for appeal and remains valid. See Gordon III, 2018 WL 5499532 at *2-3.
3

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 4 of 12

PageID #: 2643

§ 2255 petition, Gordon III. The court does not repeat that factual background
here.
During Gordon’s direct appeal, his appointed appellate counsel—after
filing a 59-page opening brief—declined to submit an optional reply brief. ECF
No. 277-1 at PageID #2461-62. Appellate counsel attests that her opening brief
raised all the pertinent Fourth Amendment arguments and relied on the leading
case law; she explains that it would have been redundant to argue the same issues
concerning suppression in a reply brief. See id. at PageID #2463-64.
Appellate counsel also filed an unopposed motion to decide the appeal
on the briefs. See id. at PageID #2462. She explains that this motion was a matter
of strategy, attesting that, after reviewing the opening and answering briefs,
“[b]ecause the record could be construed against [Gordon], as set out in the
answering brief, I saw little benefit to oral argument [because] it likely would have
exposed the weaknesses in our arguments.” Id. at PageID #2465. On June 1,
2017, the Ninth Circuit issued an order specifically finding that “[t]he court is of
the unanimous opinion that the facts and legal arguments are adequately presented
in the briefs and record, and the decisional process would not be significantly aided
by oral argument.” ECF No. 266 at PageID #2311. And on June 14, 2017 the
matter was submitted without oral argument. Id.

4

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 5 of 12

PageID #: 2644

On July 24, 2017, a panel of the Ninth Circuit affirmed Gordon’s
conviction and sentence on direct appeal. See Gordon II, 694 F. App’x at 558.
Among other issues, the panel upheld the denial of the motion to suppress evidence
from the duffel bag and wallet. See id. at 557. In this regard, Judge Paez
concurred with the result but indicated he would have reversed the denial of the
motion to suppress if not for the holding in United States v. Cook, 808 F.3d 1195
(9th Cir. 2015), to which, he recognized, he was bound. See Gordon II, 694 F.
App’x at 558 (Paez, J., concurring). Appellate counsel did not seek rehearing or
rehearing en banc. See ECF No. 277-1 at PageID #2466-67. She also did not file a
petition for certiorari to the Supreme Court, although Gordon filed a petition on a
pro se basis, ECF No. 270, which the Supreme Court denied on November 6, 2017.
See Gordon v. United States, 138 S. Ct. 434 (2017) (mem.). Gordon then filed his
§ 2255 Petition on May 22, 2018. See ECF No. 272.
III. STANDARD OF REVIEW
The court’s review is governed by 28 U.S.C. § 2255(a), which
provides:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed
in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to
impose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court which
5

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 6 of 12

PageID #: 2645

imposed the sentence to vacate, set aside or correct the
sentence.
A court should hold an evidentiary hearing on a § 2255 motion
“unless the files and records of the case conclusively show that the prisoner is
entitled to no relief.” 28 U.S.C. § 2255(b). “In determining whether a hearing and
findings of fact and conclusions of law are required, ‘[t]he standard essentially is
whether the movant has made specific factual allegations that, if true, state a claim
on which relief could be granted.’” United States v. Withers, 638 F.3d 1055, 1062
(9th Cir. 2011) (quoting United States v. Schaflander, 743 F.2d 714, 717 (9th Cir.
1984)). “Thus, the district court’s decision that [the petitioner’s] ineffective
assistance claim did not warrant an evidentiary hearing [is] correct if his
allegations, ‘when viewed against the record, do not state a claim for relief or are
so palpably incredible or patently frivolous as to warrant summary dismissal.’”
United States v. Leonti, 326 F.3d 1111, 1116 (9th Cir. 2003) (quoting Schaflander,
743 F.2d at 717). 5 Conclusory statements in a § 2255 motion are insufficient to
require a hearing. United States v. Johnson, 988 F.2d 941, 945 (9th Cir. 1993).
///
///
///

5

As set forth above, both parties concur that an evidentiary hearing is not necessary, and
the court should decide the matter on the existing record. ECF No. 299. The court agrees.
6

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 7 of 12

PageID #: 2646

IV. DISCUSSION
A.

Ineffective Assistance of Appellate Counsel
The court reviews a claim of ineffective assistance of appellate

counsel by applying Strickland v. Washington, 466 U.S. 668 (1984). See, e.g.,
Bailey v. Newland, 263 F.3d 1022, 1028 (9th Cir. 2001) (citations omitted). Under
Strickland, “the petitioner must establish that: (1) counsel’s performance fell below
an objective standard of reasonableness, and (2) a reasonable probability exists
‘that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different.’” Id. (quoting Strickland, 466 U.S. at 688). A court need not
determine whether counsel’s performance was deficient before examining whether
the petitioner suffered prejudice as a result of the alleged deficiencies. See
Strickland, 466 U.S. at 697. In other words, any deficiency that does not result in
prejudice necessarily fails.
“In applying Strickland to a claim of ineffective assistance of
appellate counsel, [the Ninth Circuit has stated] that
[Strickland’s] two prongs partially overlap when
evaluating the performance of appellate counsel. In
many instances, appellate counsel will fail to raise an
issue because she foresees little or no likelihood of
success on that issue; indeed, the weeding out of weaker
issues is widely recognized as one of the hallmarks of
effective appellate advocacy. . . . Appellate counsel will
therefore frequently remain above an objective standard
of competence (prong one) and have caused her client no
7

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 8 of 12

PageID #: 2647

prejudice (prong two) for the same reason—because she
declined to raise a weak issue.”
Bailey, 263 F.3d at 1028-29 (quoting Miller v. Keeney, 882 F.2d 1428, 1434 (9th
Cir. 1989) (internal citations and footnotes omitted)).
Gordon claims his appellate counsel was constitutionally ineffective
in four ways: (1) filing the motion to submit the appeal without oral argument,
(2) failing to file an optional reply brief, (3) failing to seek rehearing en banc, and
(4) failing to file petition for certiorari.6 All are without merit.
First, Gordon has not demonstrated a reasonable probability that oral
argument would have resulted in a different outcome. Indeed, the Ninth Circuit
panel specifically determined that it was “of the unanimous opinion that the facts
and legal argument are adequately presented in the briefs and record, and the
decisional process would not be significantly aided by oral argument.” ECF No.
266. He has identified no meritorious argument that could have made a difference
if made orally, and thus this district court is in no position to find—even
objectively—that oral argument would have led to a different result before the
Ninth Circuit. See also United States v. Birtle, 792 F.2d 846, 848 (9th Cir. 1986)

6

It is somewhat unclear whether Gordon raises the failure to file a cert petition as a basis
for his claim. His memorandum of law did not specifically argue the issue, but his affidavit
states that “I would have asked counsel to seek both panel rehearing en banc rehearing before
seeking relief from the U.S Supreme Court.” ECF No. 272-2 at PageID #2394. Nevertheless,
construing the § 2255 petition liberally, the court briefly addresses this issue as well.
8

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 9 of 12

PageID #: 2648

(upholding denial of motion to vacate sentence based on alleged ineffective
assistance of appellate counsel, where counsel failed to appear at oral argument,
reasoning in part that “[o]ral argument on appeal is not required by the
Constitution in all cases; nor is it necessarily essential to a fair hearing”) (citation
omitted).
Second, Birtle also stated that “[a] reply brief also generally is not
essential for appellate review.” Id. Just as Gordon’s appellate counsel has
attested, Birtle reasoned that “parties often decide not to file a reply brief as a
matter of appellate strategy or because they perceive no need to do so.” Id. And
just as with oral argument, Gordon has not identified a meritorious written
argument that could have been made in a reply brief that might have resulted in a
different outcome—especially given the “‘general rule . . . that appellants cannot
raise a new issue for the first time in their reply briefs.’” Id. (quoting Thompson v.
Comm’r, 631 F.2d 642, 649 (9th Cir. 1980) (other citation omitted)). He has thus
“failed to demonstrate that he was denied effective assistance of counsel on
appeal,” id. at 849, for counsel’s decision not to file a reply.
Third, as to the failure to seek rehearing en banc, based on other
circuits’ case law, it appears that a defendant has no constitutional right to counsel
at that stage. See, e.g., Jackson v. Johnson, 217 F.3d 360, 365 (5th Cir. 2000)
(denying habeas petition, holding that “a criminal defendant has no constitutional
9

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 10 of 12

PageID #: 2649

right to counsel on matters related to filing a motion for rehearing following the
disposition of his case on direct appeal”); United States v. Chandler, 291 F. Supp.
2d 1204, 1213 (D. Kan. 2003) (rejecting claim under § 2255 that counsel was
ineffective for failing to seek en banc review before the Tenth Circuit, citing
McNeal v. United States, 54 F.3d 776 (6th Cir. 1995) (table case) for its holding
that “there is no constitutional right to counsel in seeking rehearing en banc”—and
where there is no constitutional right to counsel, the client’s “constitutional rights
cannot be violated by the allegedly defective performance of his attorney”).
But even if Gordon has such a constitutional right, he has not
demonstrated that counsel’s failure to file a motion seeking en banc review would
have been successful, much less that an en banc panel likely would have vacated
the panel’s disposition. En banc review is “not favored and ordinarily will not be
ordered unless: (1) en banc consideration is necessary to secure or maintain
uniformity of the court’s decisions; or (2) the proceeding involves a question of
exceptional importance.” Fed. R. App. P. 35(a). Neither of these circumstances
exist here. 8

8

Judge Paez’s concurrence on direct appeal suggests that he disagreed with Ninth Circuit
precedent that required affirming the denial of the motion to suppress. See Gordon II, 694 F.
App’x at 558. At best, however, this means only that there might have been some basis to seek
review, and certainly does not mean a petition would have been granted and then been successful
before an en banc court. And Judge Paez could have sought en banc review sua sponte if he
considered the issue worthy enough. See Ninth Cir. Gen. Order 5.4(c)(1) & (3). Moreover, the
case he referred to—United States v. Cook, 808 F.3d 1195 (9th Cir. 2015)— remains valid
precedent to this day.
10

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 11 of 12

PageID #: 2650

Finally, the failure to file a petition for certiorari necessarily cannot
constitute ineffective assistance—no such right exists. See, e.g., Miller, 882 F.2d
at 1432 (“Because Miller had no constitutional right to counsel in connection with
the filing of a certiorari petition, he had no constitutional right to the effective
assistance of counsel for that purpose.”).
B.

Certificate of Appealability
In denying a § 2255 Motion, the court must also address whether

Gordon should be granted a certificate of appealability (“COA”). See R. 11(a)
Governing Section 2255 Proceedings (providing that “[t]he district court must
issue or deny a certificate of appealability when it enters a final order adverse to
the applicant”). A COA may issue only if the petitioner “has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
The court carefully reviewed all of Gordon’s assertions and gave him
every benefit by liberally construing them. Based on the above analysis, the court
finds that reasonable jurists could not find the court’s rulings to be debatable. See
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (holding that a certificate of
appealability should issue only if a prisoner shows, among other things, “that
jurists of reason would find it debatable whether the district court was correct in its
procedural ruling”). Accordingly, the court DENIES issuing a COA.

11

Case 1:11-cr-00479-JMS Document 300 Filed 03/27/20 Page 12 of 12

PageID #: 2651

V. CONCLUSION
For the foregoing reasons, the court DENIES Gordon’s § 2255
Motion and DENIES a COA. The Clerk of Court is directed to close the case file.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, March 27, 2020.

/s/ J. Michael Seabright
J. Michael Seabright
Chief United States District Judge

United States v. Gordon, Cr. No. 11-00479(01) JMS; Civ. No. 18-00198JMS, Order
(1) Denying Defendant’s Remanded Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence by a Person in Federal Custody; and (2) Denying a Certificate of Appealability

12

APPENDIX C
Memorandum Decision
Filed December 13, 2019

Case: 18-17202, 12/13/2019, ID: 11531632, DktEntry: 34-1, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
DEC 13 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
KENNETH SCOTT GORDON,

U.S. COURT OF APPEALS

No. 18-17202
D.C. Nos. 1:18-cv-00198-JMSKSC
1:11-cr-00479-JMS-1
MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the District of Hawaii
J. Michael Seabright, District Judge, Presiding
Submitted December 11, 2019**
Before:

WALLACE, CANBY, and TASHIMA, Circuit Judges.

Federal prisoner Kenneth Scott Gordon appeals pro se from the district
court’s order denying his 28 U.S.C. § 2255 motion. We have jurisdiction under 28
U.S.C. § 2253, and we vacate and remand.
Gordon contends that counsel was constitutionally ineffective on direct

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 18-17202, 12/13/2019, ID: 11531632, DktEntry: 34-1, Page 2 of 2

appeal. As the government concedes, the district court erred by concluding that it
lacked jurisdiction to consider this constitutional claim in a section 2255
proceeding. Our decision in Williams v. United States, 307 F.2d 366 (9th Cir.
1962), overruled on other grounds by Kaufman v. United States, 394 U.S. 217
(1969), did not hold to the contrary. Williams held that a section 2255 motion
cannot be used to review this court’s action in dismissing an appeal; rather, relief
from the dismissal must be obtained from this court. See id. at 368. Gordon’s
section 2255 motion does not seek relief that only this court can provide. Should
Gordon’s claim have merit, the district court can grant relief by vacating Gordon’s
judgment of conviction. See 28 U.S.C. § 2555. We, accordingly, remand to the
district court to consider the merits of Gordon’s claim in the first instance.
We express no opinion as to Gordon’s claim that an evidentiary hearing is
warranted on remand.
In light of this disposition, we do not reach the parties’ remaining
arguments.
VACATED and REMANDED.

2

18-17202

APPENDIX D
Order Denying 2255 Motion, Granting COA
Filed October 29, 2018

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 1 of 11

PageID #: 91

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII

UNITED STATES OF AMERICA,

CR. NO. 11-00479 (01) JMS
CIV. NO. 18-00198 JMS-KSC

Plaintiff/Respondent,
ORDER (1) DENYING MOTION
UNDER § 2255 TO VACATE, SET
ASIDE, OR CORRECT SENTENCE,
ECF NO. 272; AND (2) GRANTING
IN PART AND DENYING IN PART
CERTIFICATE OF
APPEALABILITY

vs.
KENNETH SCOTT GORDON,
Defendant/Petitioner.

ORDER (1) DENYING MOTION UNDER § 2255 TO VACATE, SET
ASIDE, OR CORRECT SENTENCE, ECF NO. 272; AND (2) GRANTING
IN PART AND DENYING IN PART CERTIFICATE OF APPEALABILITY
I. INTRODUCTION
Before the court is Defendant/Petitioner Kenneth Scott Gordon’s
(“Gordon”) Motion under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence by a Person in Federal Custody. ECF No. 272. Gordon challenges his
conviction and sentence alleging that: (1) his motion to suppress evidence was
improperly denied; and (2) he was provided ineffective assistance of counsel on
appeal.
For the reasons discussed below, the court DENIES Gordon’s § 2255
Motion (1) with prejudice as to Ground One (motion to suppress), and (2) without
prejudice as to Ground Two (ineffective assistance of appellate counsel).
1

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 2 of 11

PageID #: 92

II. BACKGROUND
On May 18, 2011, Gordon was indicted with two co-defendants for
conspiracy to distribute methamphetamine, and possession with intent to distribute
methamphetamine, in violation of 21 U.S.C. §§ 846, 841(a)(1), and 841(b)(1)(A).
ECF No. 6. Arguing that a warrantless search violates the Fourth Amendment, on
May 11, 2012, Gordon moved to suppress evidence seized from a bag he was
carrying when arrested and from a wallet and cellphone found on him when
arrested. ECF Nos. 74, 75. After a hearing, the court denied the motions to
suppress on September 10, 2012. ECF No. 105; United States v. Gordon, 895
F. Supp. 2d 1011 (D. Haw. 2012). After a jury trial, Gordon was found guilty as
charged on October 17, 2012, ECF No. 161, and later sentenced to 164 months of
imprisonment with five years of supervised release, ECF No. 227.1 Gordon filed a
“Motion for a New Trial for Sentencing,” ECF No. 230, which was denied, ECF
No. 233.
Gordon appealed. ECF No. 234. The Ninth Circuit affirmed,
concluding, among other things, that this court did not err in denying Gordon’s
motion to suppress the evidence from the bag and wallet. United States v. Gordon,
694 F. App’x 556 (9th Cir. 2017), cert. denied, 138 S. Ct. 434 (2017).

1

Gordon’s sentence was later reduced from 164 to 151 months of imprisonment (with no
changes to supervised release) after the court retroactively applied Amendment 782 of the United
States Sentencing Guidelines. ECF No. 261.
2

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 3 of 11

PageID #: 93

On May 22, 2018, Gordon filed the instant Motion under 28 U.S.C.
§ 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody
(the “Motion”). ECF No. 272. The Government filed its Response on July 23,
2018, ECF No. 277, and Gordon filed his Reply on August 27, 2018, ECF No. 278.
On September 6, 2018, the court requested both parties to provide additional
briefing on whether the court has jurisdiction over Ground Two of the Motion
(ineffective assistance of appellate counsel). ECF No. 279. On October 3, 2018,
the Government filed a Supplement to its Response. ECF No. 280. On October 4,
2018, Gordon filed his Memoranda 2 as to the District Court’s Jurisdiction. ECF
No. 281, 282. On October 18, 2018, Gordon filed a Motion to Strike unresponsive
portions of Government’s Supplement. ECF No. 283.
III. STANDARD OF REVIEW
Title 28 U.S.C. § 2255(a) provides:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed
in violation of the Constitution or laws of the United
States, or that the court was without jurisdiction to
impose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court which
imposed the sentence to vacate, set aside or correct the
sentence.
2

Gordon filed two nearly identical Memoranda on October 4, 2018. ECF Nos. 281, 282.
The court has reviewed both.

3

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 4 of 11

PageID #: 94

A court may dismiss a § 2255 motion if “it plainly appears from the
motion, any attached exhibits, and the record of prior proceedings that the moving
party is not entitled to relief.” Rule Governing Section 2255 Proceedings 4(b). A
court need not hold an evidentiary hearing if the allegations are “palpably
incredible [or] patently frivolous,” Blackledge v. Allison, 431 U.S. 63, 76 (1977),
or if the issues can be conclusively decided on the basis of the evidence in the
record. See United States v. Mejia-Mesa, 153 F.3d 925, 929 (9th Cir. 1998)
(noting that a “district court has discretion to deny an evidentiary hearing on a
§ 2255 claim where the files and records conclusively show that the movant is not
entitled to relief”). Conclusory statements in a § 2255 motion are insufficient to
require a hearing. United States v. Johnson, 988 F.2d 941, 945 (9th Cir. 1993). A
petitioner must “allege specific facts which, if true, would entitle him to relief.”
United States v. Rodrigues, 347 F.3d 818, 824 (9th Cir. 2003) (internal quotation
marks and citation omitted).
III. DISCUSSION
A.

Ground One: Motion to Suppress
Gordon’s claim regarding his motion to suppress evidence fails

because it was already raised in his direct appeal. “When a defendant has raised a
claim and has been given a full and fair opportunity to litigate it on direct appeal,
that claim may not be used as basis for a subsequent § 2255 petition.” United

4

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 5 of 11

PageID #: 95

States v. Hayes, 231 F.3d 1132, 1139 (9th Cir. 2000) (citation omitted); see also
Olney v. United States, 433 F.2d 161, 162 (9th Cir. 1970) (“Having raised this
point unsuccessfully on direct appeal, appellant cannot now seek to relitigate it as
part of a petition under § 2255.”). In his Motion, Gordon argues that his motion to
suppress should have succeeded under Arizona v. Gant, 556 U.S. 332 (2009)
(holding unreasonable a search of defendant’s car after defendant was handcuffed
and secured inside a patrol car). See ECF No. 272-1 at 19-26. But the Ninth
Circuit addressed this issue on direct appeal and distinguished Gordon from the
defendant in Gant because, unlike that defendant, Gordon was “within reaching
distance” of the duffel bag during the search. Gordon, 694 F. App’x at 557 (citing
Gant, 556 U.S. at 351). Further, the Ninth Circuit reasoned that the search was
“roughly contemporaneous” with the arrest because it occurred within seconds of
Gordon being handcuffed. Id. (citing United States v. Camou, 773 F.3d 932, 938
(9th Cir. 2014); United States v. Cook, 808 F.3d 1195, 1197, 1199-1200 (9th Cir.
2015); United States v. Nohara, 3 F.3d 1239, 1243 (9th Cir. 1993)).
Finally, the Ninth Circuit concluded that the search of Gordon’s
wallet was lawful because Gordon stipulated that officers would testify that the
wallet was taken from his person at the time of his arrest and then transported to
the DEA office. Id. Thus, Gordon is simply trying to relitigate his direct appeal,
which cannot be a basis for a § 2255 petition.

5

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 6 of 11

B.

PageID #: 96

Ground Two: Ineffective Assistance of Appellate Counsel
Gordon next alleges that his appellate counsel was ineffective for

failing to: (1) file a Reply brief; (2) request oral argument; or (3) petition for
rehearing. See ECF No. 272-1 at 30-35. On September 6, 2018, the court
requested supplemental briefing on the issue of whether this court has jurisdiction
over this claim. ECF No. 279. Upon review of the briefing3 and relevant case law,
the court determines that it does not have jurisdiction over Gordon’s claim of
ineffective assistance of appellate counsel.
Both Gordon and the Government argue that this court has the
authority to review Gordon’s claim of ineffective assistance of appellate counsel.
ECF No. 281 at 2; ECF No. 280 at 2. The Government argues that the Ninth
Circuit has assumed in some cases that the district court had jurisdiction over
similar claims. ECF No. 280 at 3 (citing Simmons v. United States, 2013 WL
3455770, at *11 (D. Haw. July 9, 2013) (“Simmons I”)). The Government also
argues that this court is “in the best position to conduct an evidentiary hearing
and/or perform fact-finding in the first instance . . . .” Id. at 3-4.
The court has addressed this issue in Simmons I. In that case, the
petitioner asserted that his appellate counsel was ineffective because counsel
3

Gordon filed a Motion to Strike unresponsive portions of Government’s Supplement,
ECF No. 280. ECF No. 283. The court does not consider any arguments in the Government’s
Supplement beyond the scope of the jurisdiction question. Thus, Gordon’s Motion to Strike,
ECF No. 283, is DENIED as moot.
6

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 7 of 11

PageID #: 97

allowed the petitioner to sign a declaration to the Ninth Circuit agreeing to
dismissal of his appeal. 2013 WL 3455770, at *11. Like in Simmons I, Gordon is
“effectively asking this court to change what happened before the Ninth Circuit”
— in this case, appellate counsel’s failure to file a Reply brief, request oral
argument, or petition for rehearing. Id.
Simmons I recognized that “the Ninth Circuit has assumed in some
cases (without specifically addressing) that the district court had jurisdiction to
decide claims alleging ineffective assistance of appellate counsel.” 2013 WL
3455770, at *11 (citing United States v. Gamba, 541 F.3d 895, 896 (9th Cir. 2008);
United States v. Skurdal, 341 F.3d 921 (9th Cir. 2003); and United States v. Birtle,
792 F.2d 846, 847 (9th Cir. 1986)). And Simmons I acknowledged that these cases
“may recognize that the district court may be in the best position to conduct an
evidentiary hearing and/or perform fact-finding in the first instance.” Id.
But, Simmons I concluded that it did not appear that the court had
jurisdiction over the claim because of Williams v. United States, 307 F.2d 366, 368
(9th Cir. 1962), overruled on other grounds by Kaufman v. United States, 394 U.S.
217 (1969), which stated:
[A] section 2255 proceeding [cannot] be utilized as a
method of reviewing the action of [the Ninth Circuit] in
dismissing an appeal. If an appeal is improvidently
dismissed in [the Ninth Circuit] the remedy is by way of
a motion directed to [the Ninth Circuit] asking for a
recall of the mandate or certified judgment so that [the
7

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 8 of 11

PageID #: 98

Ninth Circuit] may determine whether the appeal should
be reinstated. The recall of the mandate or certified
judgment for such a purpose is entirely discretionary with
[the Ninth Circuit].
See Simmons I, 2013 WL 3455770, at *10 (collecting cases). And this makes
sense. This court could not offer Gordon any relief he seeks based on ineffective
assistance of appellate counsel. Only the Ninth Circuit could do so. 4
Ultimately, the court denied Simmons’ § 2255 motion (as to
ineffective assistance of appellate counsel) without prejudice and granted petitioner
leave to renew the ineffective assistance of appellate counsel claim “if the Ninth
Circuit determines in connection with [petitioner’s] expected proceedings to recall
the mandate that this Court has jurisdiction to adjudicate it and grant relief on it,
notwithstanding Williams, in [petitioner’s] § 2255 proceeding.” Simmons v. United
States, 2013 WL 11318851, at *3 (D. Haw. July 26, 2013) (“Simmons II”). As in
Williams, the remedy for Gordon, if any, appears to be “by way of a motion
directed to [the Ninth Circuit] asking for a recall of the mandate or certified
judgment.” Williams, 307 F.2d at 368.
///
///
4

In his § 2255 Motion, Gordon requested the following relief: “(i) conviction should be
vacated; (ii) direct trial court to exclude any evidence found in the bag in any subsequent trial or
proceeding, and (iii) order my release on signature bond.” ECF No. 272 at 12. But this type of
relief is not appropriate for an ineffective assistance of appellate counsel claim. If Gordon
succeeded on his claim, at best he may be entitled to have the Ninth Circuit vacate its prior
opinion and reinstate his direct appeal.
8

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 9 of 11

C.

PageID #: 99

Certificate of Appealability
Because the court denies Gordon’s § 2255 Motion, the court next

addresses whether Gordon should be granted a certificate of appealability
(“COA”). See Rule Governing Section 2255 Proceedings 11(a) (“The district court
must issue or deny a certificate of appealability when it enters a final order adverse
to the applicant.”). The court may issue a COA “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). See Rule Governing Section 2255 Proceedings 11(a) (“If the court
issues a certificate, the court must state the specific issue or issues that satisfy the
showing required by 28 U.S.C. § 2253(c)(2).”).
“The standard for a certificate of appealability is lenient.” Hayward
v. Marshall, 603 F.3d 546, 553 (9th Cir. 2010) (en banc), overruled on other
grounds by Swarthout v. Cooke, 562 U.S. 216 (2011). The petitioner is required to
demonstrate only “that reasonable jurists could debate the district court's resolution
or that the issues are adequate to deserve encouragement to proceed further.” Id.
(citations and internal quotation marks omitted). See also Slack v. McDaniel, 529
U.S. 473, 484 (2000) (holding that a certificate of appealability should issue only if
a prisoner shows, among other things, “that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling”).

9

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 10 of 11

PageID #: 100

Applying that standard, the jurisdictional issue concerning Ground
Two (ineffective assistance of appellate counsel) is debatable by jurists of reason
— the Ninth Circuit has assumed (without discussion) that district courts have
jurisdiction over ineffective assistance of appellate counsel, while its opinion in
Williams seems to say otherwise. But the claim in Ground One (motion to
suppress) is not debatable by jurists of reason — Gordon was given a “full and fair
opportunity to litigate” this issue on direct appeal (and did so) and cannot use this
§ 2255 petition to relitigate the issue. See Hayes, 231 F.3d at 1139.
V. CONCLUSION
For the foregoing reasons, the court DENIES Gordon’s Motion under
28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal
Custody (1) with prejudice concerning Ground One (motion to suppress), and
(2) without prejudice concerning Ground Two (ineffective assistance of appellate
counsel). The court GRANTS issuance of a COA as to Ground Two, and DENIES
issuance of a COA as to Ground One.
///
///
///
///
///

10

Case 1:18-cv-00198-JMS-KSC Document 4 Filed 10/29/18 Page 11 of 11

PageID #: 101

IT IS SO ORDERED.
DATED: Honolulu, Hawaii, October 29, 2018.

/s/ J. Michael Seabright
J. Michael Seabright
Chief United States District Judge

United States v. Gordon, Cr. No. 11-00479-01 JMS, Civ. No. 18-00198 JMS-KSC, (1) Order
Denying Motion Under § 2255 to Vacate, Set Aside, or Correct Sentence, ECF No. 272; and (2)
Granting In Part and Denying in Part Certificate of Appealability

11

APPENDIX E
2255 Motion and Memorandum ISO 255
Filed May 22, 2018

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 1 of 12

PageID
#: 1
FILf[J IN I HE

UNITHl

S'l'AH:~' l)if;1"1~1 !"T

i i1s·1

Htn rn

COURT

'~1\1~11\ •.

f/tt\Y 2 2 2010

AO 243 (Rev. 09117)

MOTION UNDER 28 U.S.C. § 2255 TO VACATE, SET ASIDE, OR CORRE<;!C
C)
~
il-1'.]>'clock andO
min
SENTENCE BY A PERSON IN FEDERAL CUSTODY
sue BEITIA.Cli:RK
.

United States District Court

District

If. t.·11-il

Name (1111der which you were co11vic1ed):
11

r

Docket or Case No.:

e /i, S'~ o H ~vr./c.;/

Place of Confinement: c:::::::._

/ . _.

I.._/

{ Vl

\...._,

C't< . )./~ !/- ''~179 - cl
Prisoner No.:

cs 0 -

/8~7ft>.).7Movant (i11c/11de name 1111der which co11vic1ed)

UNITED STATES OF AMERICA

v.

k

t'·1111c.lh f~ ,~-rr ~~ rdv-A/

MOTION

1.

(a) Name and location of court which entered the judgment of conviction you are challenging:

LI111 /., ./ .ffr.>-fo,5- ~ nfnt.-f t/."<;'t;;.d/ /)iJ ln"/-"1::;.. //>7U-;'J-/ /

ti. ).

C-no-f11t;UJ-e

Ir/~ /ttuuw1 Bit-'/> .
~- /_!ft/t.·o ;ihct./- !f.c t!
~·,f.o_/_3
_ _ _ _ _ _ _ _ _ __ _

6

t>t)

(b) Criminal docket or case number (if you know):

2.

f)

I

(a) Date of the judgment of conviction (if you know): _4~'-t~1_'-1_,,_1_t_i...__,_1_2_t_'l_3_________
/f"1]t-tf f

(b) Date of sentencing:

ltt/

/1 l

/11t!/(/!Jff;

3.

Lengthofsentence:

4.

.
Nature of cnme (all counts):

5.

(a) What was your plea? (Check one)

t r/ 3

rrJu~-f/

·h

IS- I JYl{;'~ hrs

.j/qJIJttlhtf

u~ 26 JG.

J 'h ..L J .L - ,,j ·- d l'>t;J"H-lf 1-vl h, t '1 /rA..f /7J
nny FD ///$7YU.ntrr:. ......,,
(_'
/
7
1
/
/)/ffn In</e )l' tJ?t.1n11J v 1-- JrJ "/'e 4 f ti'( f t,e: "/lkk_ M l-;,, fJ /V ':" u/ ~"~ ~· f.~.
t.t .Sc S-et:.htii?J f"ll (.4) (1) tA... J ct)liJtlf) ~ d ?'It./ /P5rffU<I>'> '-' 1 ~,;f/<'h-<-·f
f>1sfr1 .h1tfe rz, ~11't~S vr 1u_nre i) f ~tJ1:ra';'f'~u.fo;.min£ //V v1 .e- ,, 1<uv c
Z-1 ll SC h~h ~n J !Jiii t.~dc.J) ~w. d lh) O)(/I)

(I) Not guilty

6.

[ /(, /VI. ii~ t'(J'/-7? -

_ _ __

G

/'

<- tJ)?j fl

(2) Guilty

D

(3) Nolo contendere (no contest)

D

(b) If you entered a guilty plea to one count or indictment, and a not guilty plea to another count or indictment,
what did you plead guilty to and what did you plead not guilty to?

;v)A

6.

If you went to trial, what kind of trial did you have? (Check one)

7.

Did you testify at a pretrial hearing, trial, or post-trial hearing?

Juryfil'
Yes

D

JudgeonlyD
No[i2(

Page 2 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 2 of 12

PageID #: 2

•'

AO 243 {Rev. 09/17)

8.

Did you appeal from the judgment of conviction?

9.

lfyou did appeal, answer the fo llowing:

NoO

Yes 0

?{ S'. lc"'r/ o·f'/f;!,Rf/J1f:, )/,;/l/lzc lillClll fC . !f . /l/J . I 3·-. / 6 ~-(;,3
Docketorcase number(ifyouknow):

(a) Name ofcomt:
(b)

ltffirmed J1Jlnc.:/=L'aurf
/- '4 2.t"'/ 6
f ·Ht;, J Jt1rus
,Ttzdt:)~,(.
Date of result (if you know):
v
v

(c) Result:
(d)

(e) Citation to the case (if you know): - -- - - - - - --

I.

(f) Grounds raised:

iv /ieh <t?d /'h<.

.

- - - - -- - -- - - - - -

t/J sh-1 ~:f cc-ud

e',.y~ i 1#

lfP""'/''17 C.u-~/~ T

.
1
•
.L.
If.re>,, "'-/J:f' J'J<€ ern;rhQi~&s.s·. J .
17
CotJ.· f A-l,1~LJ~j I /.J <¥--!f~l'a.1 P'-' I /J ~/')'//.lj'
,
l~rdi:;N J nt"/J.u._. Jv J./n'k 4. ~jr ft~" rd //Jho..
6, /,v~ /l«J~ /rU2._ / 1f/Hc:.-f Cvtev'l€1f~j t'7d?ll/I;., &1~N'/l_s. ·d .
r-C:jl@>C /;, r a i"'-t'/ ,e,':r ,,.-., ~ _11-.f;'~Ifnten/-.
1.ve r $..
u , iv.AR h~ t- /tVL l-t.rJ? £ u l?'"O? l J e ///t;_A-l EJ 1 '-t:;-/' c J P

m#hi~ ~ f

Lf//FFJ5

<

2. . /vM~" ~ dtJfn cf

Stt.

7

ka

i'J//,

l(J;

reHS<:>,-c,.-;~u~ •

(g) Did you file a petition for ce1iiorari in the United States Supreme Coutt?

Yes

lf "Yes," answer the following:

( I) Docket or case number (if you know): - - - - - -- -- - - -- - -- -- - - <f-tf'
(2) Result:

(d.

'J..e,,,1

(3) Date of result (if you know):
(4) Citation to the case (if you know):

fiv ti.l f/c_pr ~

(5)Groundsraised:

(~ v d i:;rJ

I 0.

/W c,/1<)/J

1

1 ri

~,.c..11·,1J

ft, J U/;tf r~r r .

Other than the direct appeals listed above, have you previously filed any other motions, petitions, or applications,
concerning th is ju~ of conviction in any cou1i?
Yes D

11 .

S

JtJh. . .::J co-o-//-f errzr J

No lJLI

If your answer to Question I 0 was "Yes," give the fo llowing information:
(a) (I) Name of cou1i :
(2) Docket or case number (if you know):
(3) Date of filing (if you know):
-~-~----~~--------~----~-

Page 3 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 3 of 12

PageID #: 3

•'

/\0 243 (Rev. 09/17)

(4) Nature of the proceeding:

(5) Grounds raised:

(6) Did you receive a hearing where evidence was given on your motion, petitio n, or application?

Yes D

No[j/

(7) Result:
~~~~~~~
~~~~~~~~~~~~~~~
~~~
~~~~~
~~~~

(8)

Date of result (if you know):

(b) If you filed any second motion, petition, or application, give the same information:
( I ) Nameofcourt:

(2) Docket of case number (if you know):
~~~~~~~~~~~
~~~~~~~~~~~~

(3) Date of filing (if you know):
(4) Nature of the proceeding:
(5) Grounds raised:

(6) Did you receive a hearing where evidence was given on your motion, petition, or application?

Yes D

No[21"

(7) Res ult:
~
~~~~~~~~~~~~
~~~
~~~~~~~~~
~~~
~~~
~~~

(8) Date of result (if you know):
(c) Did you appeal to a federal appellate cou1t having jurisdicti on over the action taken on your motion, petition,
or application?
(I) First petition:

Yes O

(2) Second petition:

Yes D

(d) If you did not appeal from the action on any motion, petitio n, or application, explain briefly why you did not:

Page 4 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 4 of 12

PageID #: 4

.·
AO 243 (Rev. 09/17)

12.

For this motion, state every ground on which you claim that you are being held in violation of the Constitution,
laws, or treaties of the United States. Attach additional pages if you have more than four grou nds. State the facts
supporting each ground. Any legal arguments must be submitted in a separate memorandum.

(b) Dil'cct Appeal of Ground One:
( I) If you

a~d

Yes LilJ

from the judgment of conviction, did you raise th is issue?
No O

(2) If you did not raise this iss ue in your direct appeal , explain why:

(c) Post-Conviction Pl'oceedings:
(1) Did yoL~this i ssu~ post-conviction motion, petition, or app lication?
Yes Li!j

No~v

(2) If you answer to Question (c )( I) is " Yes," state:
Typeofmotionorpet ition:

ft:nf7c-1J

{?11

/,(.,'/(/

r

Cff~//t'/!./f7(.,/

/;r

Name and location of the court where the motion or oetition was filed:

_ _ ti. (. fue~,/'L/2. t~·uA../r _ __ __ _
Docket or case number (if you know):
Date of the court's decision:
Result (attach a copy of the court's opinion or order, if available):

Cfc',.,t,/.-. /)e-;,1/<1? d

(3) Did you receive a hea~your motion, petition, or application?
Yes D

No l_0

.
Page 5 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 5 of 12

PageID #: 5

"
AO 243 (Rev. 09117)

(4) Did you appeal from t~al of your motion, petition, or application?
Yes O

No~

(5) If your answer to Question (c)(4) is "Yes," did you raise the issue in the appeal?
Yes O

No O

(6) If your answer to Question (c)(4) is "Yes," state:
Name and location of the court where the appeal was filed:
Docket or case number (if you know):
Date of the coUJt's decision:
Result (attach a copy of the court's opinion or order, if available):

(7) If your answer to Question (c)(4) or Question (c)(S) is "No," explain why you did not appeal or raise this
issue:

Page 6 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 6 of 12

PageID #: 6

,•

AO 243 (Rev. 09/17)

(2) If you did not raise this issue in your direct appeal, explain why:

(c) Post-Conviction Proceedings:

(I) Did you raise this issue in

Yes

D

~st-conviction motion, petition, or application?

No@'

(2) If you answer to Question (c)(l) is "Yes," state:
Type of motion or petition:
Name and location of the coutt where the motion or petition was filed:

Docket or case number (if you know):
Date of the court's decision:
Result (attach a copy of the court's opinion or order, if available):

(3) Did you receive a hearing on your motion, petition, or application?
Yes

D

No

D

(4) Did you appeal from the denial of your motion, petition, or application?
Yes O

NoO

(5) If your answer to Question (c)(4) is "Yes," did you raise the issue in the appeal?
YesD

NoO

(6) Tfyour answer to Question (c)(4) is "Yes," state:
Name and location of the court where the appeal was filed:

Docket or case number (if you know):
Date of the court's decision:
Result (attach a copy of the court's opinion or order, if available):

(7) If your answer to Question (c)(4) or Question (c)(5) is "No," explain why you did not appeal or raise this
issue:

Page 7 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 7 of 12

PageID #: 7

AO 243 (Rev. 09/17)

GROUND THREE:
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that suppo1t your claim.):

(b) Direct Appeal of Ground Three:
( 1) Tfyou appealed from the judgment of conviction, did you raise this issue?
YesO

NoO

(2) If you did not raise this issue in your direct appeal, explain why:

(c) Post-Conviction Proceedings:
( I) Did you raise this issue in any post-conviction motion, petition, or application?

YesD

NoO

(2) If you answer to Question (c)(I) is "Yes," state:
Type of motion or petition:
Name and location of the court where the motion or petition was filed:
Docket or case number (if you know):
Date of the cou1t's decision:
Result (attach a copy of the court's opinion or order, if available):

(3) Did you receive a hearing on your motion, petition, or application?
YesO

NoO

(4) Did you appeal from the denial ofyom motion, petition, or application?
YesO

NoO

(5) Tfyour answer to Question (c)(4) is "Yes," did you raise the issue in the appeal?
YesO

NoO

Page 8 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 8 of 12

PageID #: 8

AO 243 (Rev. 091 17)

(6) If your answer to Question (c)(4) is "Yes," state:
Name and location of the court where the aooeal was fil ed:

Docket or case number (if you know):
Date of the coutt's decision:
Result (attach a copy of the court's opinion or order, if available):

(7) If your answer to Question (c)(4) or Question (c)(5) is "No," explain why you did not appeal or raise this
issue:

GROUND FOUR:
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):

(b) Direct Appeal of Ground Four:
(I)

If you appealed from the judgment of conviction, did you raise this issue?
Yes D

No O

(2) If you did not raise this issue in your direct appeal, explain why:

(c) Post-Conviction Proceedings:
( I)

Did you raise this issue in any post-conviction motion, petition, or application?
YesD

NoO

(2) If you answer to Question ( c)(I) is " Yes," state:

Page 9 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 9 of 12

PageID #: 9

AO 243 (Rev. 09/ 17)

Type of motion or petition:
Name and location of the court where the motion or petition was filed:

Docket or case number (if you know):
Date of the court's decision:
Result (attach a copy of the court's opinion or order, if available):

(3) Did you receive a hearing on your motion, petition, or application?
No O

Yes O

(4) Did you appeal from the denial of your motion, petition, or application?
NoO

Yes O

(5) Tfyour answer to Question (c)(4) is "Yes," did you raise the issue in the appeal?
No O

Yes D

(6) If your answer to Question (c)(4) is "Yes," state:
Name and location of the court where the appeal was fi led:

Docket or case number (if you know):
Date of the cowt's decision:
Result (attach a copy of the court's opinion or order, if available):

(7) If your answer to Question (c)(4) or Question (c)(5) is "No," ex plain why you did not appeal or raise this
issue:

13.

ls there any ground in this motion that you have not previously presented in some federal comt? lf so, which
ground or grounds have not been presented, and state your reasons for not presenting them:

Yes.

1rvr:fff-C."/7vf

hpf~ ~I., T

f-

/,J / o

fr<.Sr:>~f

!Vt/- Ci '1"1

51- 1 n

,.,-r:- cocu1Je { Pr?
·ftl I I l t 1~ /, / 11-fh

12-

t # U l'l~&f M~Jler UrJMt'fnc ,,,,.-rLJ:?J tvJ(}-7f/7~t"L
~end rkbd J2, ~Ff' tfknL1/1 S ·
Page 10 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 10 of 12

PageID #: 10

AO 243 (Rev. 09/17)

14.

Do you have any motion, petition, or appeal now~i:ig (filed and not decided yet) in any cou1t for the
No
Yes O
you are chal lenging?
Tf "Yes," state the name and location of the court, the docket or case number, the type of proceeding, and the
issues raised ..

15.

Give the name and address, if known, of each attorney who represented you in the following stages of the
judgment you are challenging:
(a) At the preliminary hearing:

(b) At the arraignment and plea:

(c) At the trial:

( d) At sentencing:

(t) In any post-conviction proceeding:
(g) On appeal from any ruling against you in a post-conviction proceeding:

16.

Were you sentenced on more than one cou1t o f an ind ictment, or on more than one indictment, in the same cou1t
Yes ~ No
and at the same time?

17.

Do you have any future sentence to serve after you complete the sentence for the judgment that you are
No ~
Yes
challenging?

D

D

(a) Tf so, give name and location of court that imposed the other sentence you will serve in the futu re:

(b) Give the date the other sentence was imposed:

~~~~~~~

~~~~~~~~~~~~~~~~

(c) Give the length of the other sentence:

~~~~~~~~~~

~~~~~~~~~~~~~~~~

(d) Have you filed, or do you plan to file, any motion, petition, or application that challenges the judgment or
sentence to be served in the future?

Yes

D

No

D

Page 11 of 13

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 11 of 12

PageID #: 11

AO 243 (Rev. 09/17)

18.

T IMELINESS OF MOTION: If your j udgment of conviction became fi nal over one year ago, you must explain
why the one-year statute of li mitations as contained in 28 U .S.C. § 2255 does not bar your motion.*

*The Antiterro rism and Effective Death Pena lty Act of 1996 ("AEDPA") as contained in 28 U.S.C. § 2255,
paragraph 6, provides in patt that:
A one-year period of limitation shall apply to a motion under this section. T he lim itation period shall run
from the latest of (I) the date on which the judgment of conviction became final;
(2) the date on which the impediment to making a motion created by governmental action in violation of
the Constitution or laws of the United States is removed, ifthe movant was prevented from making such a
motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme Cou1t, ifthat right has
been newly recognized by the Supreme Cou1t and made retroactively applicable to cases on collateral
review; or
(4) the date on which the facts suppo1t ing the clai m o r claims presented could have been discovered
through the exercise of due diligence.

Page 12of IJ

Case 1:18-cv-00198-JMS-KSC Document 1 Filed 05/22/18 Page 12 of 12
•

PageID #: 12

I

AO 243 (Rev. 09/17)

Signature of Attorney (if any)

I declare (or certify, verify, or state) under penalty of pe1jury that the foregoing is true and correct and that this Motion
under 28 U.S.C. § 2255 was placed in the prison mailing system on
(month, date, year)

1-1,_Y----'--/_tJ+/-J_t7_/_~___ (date)

Executed (signed) on _ _/Jt
_·_l ..

lfthe person signing is not movant, state relationship to movant and explain why movant is not signing this motion.

Page 13 of 13

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 1 of 39

PageID #: 13

._

Kenneth Scott Gordon
No. 13678022
SPC-Tucson
P . O. Box 24549
Tucson, Arizona 85734

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII

CR . NO. 1 1 -00479-0 1

UNITED STATES OF AMERICA ,
PLAINTIFF

vs .
KENNETH SCOTT GORDON,
DEFENDANT

MEMORANDUM OF LAW IN SUPPORT OF
CORPUS MOTION TO VACATE
SENTENCE

HABEAS

CONVICTION AND SET ASIDE

PURSUANT- TO 28 U.S.C. SECTION 2255

I. Introduction
This Memorandum will establish that Defendant Kenneth
Scott Gordon ( "Gordon " ) has been convicted and imprisoned in
violat i on of his Fourth Ame ndment right to be free from an
unconstitutio nal search incident to arrest and his Sixth
Amendme~t

right to effe ctive assistance of couns e l on appeal .

'J

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 2 of 39

PageID #: 14

As to t he searc h, i t is undisputed that at the time o f
the warrant less searc h o f the dufffl e bag here in issue,
Gordon was standing by his automobile surrounded by four
officers and handcuffed and the closed duff e l bag he had been
carrying was in the " complete control " of the arrest ing
officers from the moment Gordon was arrested until and after
it was searched.

(Di strict Court Decision, at 3). In denying

t he moti on t o suppress, t he trial court stepped outs ide the
boundaries es tablshed by the Supreme Court in Arizona v . Gant ,
556 U . S. 332 , 129 S. Ct. 1710, 173 L. Ed 2d 48 5 (200 9) for
searches incident to arrest where the scene is secured and
thus sanctioned an unconst itutional search of the bag.
Both the trial court and the Ninth Circuit Court of
Appeals cited decisions of the Ni nth Circuit Court of Appeals
to support their Decision denying Gordon ' s motion to s uppress.
These cases c i ted cases that likewise e xceeded the boundary
establ ished by Gant a nd t h ereby violated settled principles of
stare decisis as both the results and reasoning employed
there in are irreconci l abl e with Gant's holding and the Gant
court ' s mode of analysis . Gan t at 1 73 L . Ed 2d 485 at 499 ;
County of Allegheny v. ACLU Greater Pittsburgh Chapter , 492 U.
S . 573, 668 , 10 6 L.

Ed. 2d 472 , 109 S . Ct. 3086 (1 989) ; See

also, Miller v . Gammi e, 335 F . 3d 889 , 900 (9th Ci r . 2003)
(citin g Allegheny with approval) .
The claim of ineff e ct i ve assistan ce o f coun se l o n appea l
will be established herei n f or several reas o n s . F irst ,
Gordon's Opening Brief argu ed that Gant required suppression
o f the duffel bag and i ts contents bu t f a iled to argue t h at
(i) Gant requires l o wer court ' s to apply its mode of ana l ys i s,

2

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 3 of 39

PageID #: 15

i.e., looking to the two Chime! factors as the boundaries
which mus t be met to legitimi ze a warrantless search i ncident
t o arrest after the scene of arrest is secured;

(ii) the trial

court ' s reliance on Cook, Maddox, Turner and Noh ara improperly
failed to apply Gant's mode of analysis or holding; and (ii i )
Cook ' s facts are clearly distinguish able fr om Gordon and Gant
due to the tri al court ' s fa ctual finding of potential danger
to the evidence in Nohara.
Second, the opportunity to cover those o missions arose as a
matter o f course with the arrival of the Government's
Answering Brief (AB) . All of the arguments briefly identified
above a nd detailed hereaft er should have been raised in a
Reply Brief. Instead, wi thout Gordon's knowledge or consent
Gordon's counsel waived Gordon's right to Reply to the
Government's Answering Brief.
The waiver of ·the right to file a Repl y Brief without the
client 's conse nt was be l ow the objective s t andard of
reasonabl e ness under prevailing profess i onal norms. The
impl i ed proposition of counsel ' s l etter to Gordon (Gordon
Affidavit, Exhibit

) that it would have been improper to

attack a nd criticize the reasoning and authori ties posited by
the Government in a Reply Brief i s by itself resounding
evidence of a judgment far below profess i onal norms f or
appel l ate advocacy. This d eficiency standing a l one renders the
result unreliable as counsel failed at a critical stage to
"render the [appea l] a reliable adversarial te sting process."
Id. a t 688.
Th ird, counsel therea f ter waived Gordon's right t o oral
argument without Gordon ' s consent and over his written request

3

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 4 of 39

to attend oral argument.

PageID #: 16

(Gordon Affidavit , # 8 , Exhibit 3

) . These unconsented to waivers to avoid further efforts with
a reasonable probability of success at hand rendered counsel's
work on appeal below the norm of a "legally competent
attorney", and are not "within the range of competence
demanded of attorneys in criminal cases" and thus ineffective.
Strickland v. Washington, 466 U.S. 668 , 80 L. Ed 2d 674, 104
S. Ct. 2052 (1984); Rowe v. Flores-Ortega, 528 U.S . 470 (2000)
(failure to consult client before deciding not to file notice
of appeal) . Indeed, these waivers which fly in the face of
Gordon's written communication to counsel of his desire to
attend oral argument establish two inst·a nces of presumed
ineffectiveness as those two critical stages of the proceeding
did not occur . Roe at 483 - 484. Alternately, they add to the
chorus o f actual ineffective assistance .
Fourth, Appellate counsel's reaction to the Decision of
the Court of Appeals reveals that she had long ago abandoned
Gordon. A reasonably competent counsel would have surely
petitioned for rehearing by the panel and rehearing en bane
since the panel stated this case with constitutional issues is
a c l ose call and a concurring Justice flat out stated in a
concurring opinion that he would have reversed the District
Court and suppressed the evidence found in the search but for
his view that an easily distringuishable case on the fa cts
[Cook] required his affirmance.
A reasonably competent appe llate counsel would have and
should have been encouraged to pursue rehearing by the panel
and to the Court en bane. Instead, counsel's post Decision
advice to Gordon was that she " did not believe meritorious,

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 5 of 39

PageID #: 17

non-frivolous grounds exist for further Appellate Review of
the Decision for Panel Rehearing, Rehearing En Banc or Appeal
to the Supreme Court (Gordon Affidavit, # 11 , Exhibit 5). She
did not even ask him if he nevertheless wanted her to pursue
either or both of those paths to reversal. Prejudice here
shou ld again be presumed as there was no reason to believe
that Gordon would not want those processes to occur and he had
reasonably demonstrated to counsel that he was interested in
pursuing all available avenues of relief . Roe at 997 . The
highly r e levant fact that he went to trial was i g n ored . Again,
in the alternative, these errors contributed to pervasive
actual ineffective assistance and prejudice which rendered the
adversary process itself presumptively unreliable as Gordon
lacked effective ass istance at critical points of the
proceeding . Roe at 843.
As demonstrated with particularity hereinafter, Gordon 's
case involves a question of exceptional importance [the scope
of the exception for searches incident to arrest after the
scene of arrest is secure] ; or the opinion directly conflicts
with an existing opinion by another court of appeals or the
Supreme Court [here, Gant and Allegheny] and substantially
affects a rule of nati onal application in which there is an
overiding need for national uniformity [the scope of the
e x ception for searches incident to

arrest after the scene of

arrest is secure] .
From Gant , a case that is arguably the most important
search and seizure authority since Chimmel in 1967, appellate
counsel found nothing to argue in a Reply Brie f or at oral
argument that she did not deem as frivolous and waived

I

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 6 of 39

PageID #: 18

Gordon 's right to either means of advocacy . She then advised
Gordon that appellate revi ew had no chance o f success when
under control l ing authority from the United States Supreme
Court , further argument had at l east a reasonable probabil ty
of success. By these failures of omission, appellate counsel
fell below an objective standard of reasonableness which l eft
Gordon without effective assistance of counsel a t critical
stages of the appell ate process and thereby rendered the
outcome o f t h e appellate process both presumptively and
ac tually unreliabl e.
For the reasons stated above as amplified hereinaf ter ,
Gordo n's conviction should be vacated , the trial court should
be directed to (i) exc lude any evidence f ound in the bag in
any subsequent trial or other proceeding,

(ii) order t h at

Gordon be r eleased from custody pending any further
proceedings on signature b ond only, and (iii) provide such
othe r directions as appear appropriate and consi stent with
those requested .

II . Statement of the Case

On May 14, 2011, local and f ederal officers arrested
Gordon based on a tip from a co-conspirator. A warrantl ess
search was conducted after the arrestee was handcuffed and
surro unded by officers and the scene had been secure d .
On October 11, 2011, the government filed a Second
Supersedi ng Indictment against co - def endant Tyrone Fair and
Gordon c harging both with:
Possess with Int ent

(1) Conspiracy to Distribute and

to Distribute 50 Grams or More o f

I

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 7 of 39

PageID #: 19

Methamphetamine in violation of 21 U . S.C. Sections 841 (a) (1),
841

(b) (1) (A) and 846; Possession with Intent to Distribute 50

Grams or More of Methamphetamine in violation of 21 U.S.C.
Sections 841 (a) (1) and (b) (1) (A). ER IA 10-11) . The original
indictment charged only Gordon under Counts 1 and 2. ER IB; DR
6 . A superseding indictment charged Gordon and Richelle Higa

under Counts 1 and 2.
On May 11, 2012, Gordon filed a motion to suppress
evidence obtained from his

du~fel

bag, wal l et and cell phone.

After a hearing on these motions, the district court denied
the same on September 10, 2012 . ER IA 132.
The case proceeded to trial from October 10, to October 16,
2012 before United States

District Judge J. Michael

Seabright. ER IB 179-181; DR 148-160. The contents of the
duffel bag and wallet were used as evidence against Gordon as
were other items not here in issue. After the close of the
government's case,

both defendants moved for a judgment of

acquittal under Rule 29 of the Federal Rules of Criminal
Procedure, which motion the court denied. ER III 185, 189 .
Neither Fair nor Gordon testified on their own behalf. The
jury returned guilty verdicts on both counts against both
defendants. EV IV 145 .
On August 1, 2013, the Court imposed

sentence against

Gordon, which included 164 months custody for both counts to
run concurrently . ER IV 202 . Judgment was entered on August 2,
2013. ER IA 3.

On August 16, 2013, Gordon sought a re-sentencing

hearing

under the document "First MOTION for New Trial for Sentencing
by Kenneth Scott Gordon as to Kenneth Scott Gordon " , which

7

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 8 of 39

PageID #: 20

motion the court denied on August 23, 2013. ER IB 185; DR 230,
231, 23·3. Gordon timely filed a notice of appeal on September
4,

2013 . ER IA 1.
On January 20, 2016, pursuant to 18 U.S.C. Section

3582 (c) (2) the District Court granted
a motion for sentence reduction, reducing Gordon's custodial
term from 164 months to 151 months, concurrent as to both
Counts 1 and 2 . See DR 261.
In the Ninth Circuit, on September 16, 2013, the Court sua
sponte consolidated Gordon's appeal (C.A. No . 13 - 10463) and
Tyrone Fair's appeal (C.A. No . 13-10081). On February 26,
2015, the Court affirmed Fair's convictions and sentence .
Meanwhile, Gordon ' s appeal was delayed due to the death of his
retained counsel . See, Ninth Circuit Docket for April 21,
2014 .
On December 1, 2014, Gordon's newly appointed counsel filed
an Anders Brief and a motion to withdraw as counsel . On
January 15, 2016, the Court struck the Anders Brief, granted
the motion to withdraw , ordered the appointment of Ms.
McMillen as new appellate counsel, and briefing of the issues
of (i) whether the district court erred in denying Gordon's
motion to suppress the contents of his duffel bag and wallet,
finding these warrantless searches valid searches incident to
arrest? If the court erred in admitting this evidence, was the
error harmless beyond a reasonable doubt?;

(ii) Whether the

district court abused its discretion in denying Gordon's
motion to strike a 35-second video purportedly showing him
enter and leave a drug trafficker's apartment on May 14, 2011;
and (iii) whether the district court erred at sentencing in

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 9 of 39

PageID #: 21

denying Gordon's request for a minor role adjustment?
On April 11, 2016, Gordon's replacement Opening Brief was
filed.
On June 10, 2016, the Government's Amswering Brief was
filed. Dkt . 60 .
On June 20, 2016, on appellate counsel's motion and without
notice or consultation with Gordon, the court granted Gordon's
motion to waive the fil i ng of a Reply Brief.
On April 6, 2017, the Court set oral argument in the case
for June 14, 2017 at 9:00 a.m.
On or about June 1, 2017, the court cancelled the oral
argument at the request of Gordon's counsel but without his
consent or knowledge.
On July 24, 2017, the court issued its Decision adverse to
Gordon .
Gordon is currently in custody at the Satellite Prison Camp
in Tucson , Arizona. His scheduled release date is August 26,
2022.

III. Statement of the Facts.

A. The facts as to the search of the duffel bag.
The facts as found by the trial judge are described or
quoted below as applicable. As described by the trial court,
DEA Agents set up a sting operation based upon information
from cooperating co-defendant Richelle Higa ("Higa") that a
courier was scheduled to arrive at her apartment to pick up
money derived from the sale of methamphetamine at a time
certain . Gordon arrived at the scheduled time in his vehicle .

q

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 10 of 39
22

11

PageID #:

Carrying a black duffel bag, Gordon entered Higa's

apartment and stayed approximately thirty seconds ... Gordon
then left the apartment with . his bag hanging by a strap from
his shoulder ... As Gordon approached his vehicle, Officers
Marumoto and Fujinaka, and two other HPD Officers detained
him. Officer Narumoto grabbed Gordon 's right arm and another
officer grabbed his left arm.
***

As off icers detained Gordon , the duffel bag was removed
from Gordon's shoulder and Gordon was handcuffed ... [A]f ter
Gordon was arrested and placed in handcuffs,

[Agent Rumschlag]

immediately placed the bag on the ground and opened it ....
***

.. Gordon was right in fro nt of the bag when [Rumschlag ]
looked inside of it.
***

The Government does not dispute that Gordon was unde r
custody and control of law enforcement when Agent Rumschlag
initially searched the bag. Gordon offered no resistance to
the arrest, and was surrounded by several officers . The
testifying witnesses did not observe any other persons at the
scene that they deemed to be potential threats. Weapons we re
neither observed at the scene or found in the bag.
***

It [was ] undisputed . . that the bag remained in the
complete control of law e nforcement from when it was removed
from Gordon's shoulder at the scene of the arrest until it
arrived at the Federal Building.

/~

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 11 of 39
23

PageID #:

***
After Agent Rumschlag made his initial search of the bag,
it was transported by law

enforcement, along with Gordon, to

the DEA office at the PJKK Federal Building (the
Building 11 )

11

Federal

in Honolulu. The Federal Building is an

approximately twenty or thirty minute drive from where the
arrest took place. Agent Rumschlag returned to the Federal
Building at the same time ...
***
Shortly after arriving at the Federa l Building, Agent
Rumschlag opened the bag and conducted a more thorough
[warrantless] search of its contents. This involved removing
all of the items from the bag and completing an inventory of
thoses items. Agents found the macadamia nut candy boxes that
they had planted (i.e., the boxes containing paper to simulate
the weight of the currency) . They also found other boxes of a
different brand of macadamia nut candy, which they had
planted, containing bundles of United States currency.
***
Agent Rumschlag and Special Agent Joe Cheng took
photographs ·of the bag and its contents at the DEA office.
Government Exhibit 2B is a photogtaph of at least nine bundles
of $20 and $100 bills found inside the opened candy boxes . The
first of these photographs contains a time stamp which
indicates that it was taken at 11:24 a.m., approximately one
hour after the initial arrest.
***
Gordon agreed at the hearing [o n the motion to suppress]

I/

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 12 of 39
24

PageID #:

that if the court upholds Agent Rumschlag ' s initial s earch of
the bag, then the subsequent search at the Federal Building
woul d be valid .. . "

B . The facts as to ineffect i ve assistance of counsel on
appeal .

1. Gordon's ~ounsel on appeal was appointed by the Court of
Appeals on January 15 , 2016 under the circumstances and on the
conditions . set forth in the Statement of the Case.
2 . Gordon's Opening Brief was filed on or about April 1,
2016.
3. Gordon's Opening Brief argued that Gant required
suppression of the black bag and its contents but failed to
argue that (i) Gant requires lower court's to apply its mode
of analysis, i . e . looking to the two Chimel factors as the
boundaries which must be met to legitimize a warrantless
search incident to arrest after the scene of arrest is
secured;

( i i) the trial court's reliance on Cook, Maddox,

Turner and Nohara improperly failed to apply Gant's mode of
analysis or holding; and (iii) Cook ' s facts are clearly
distinguishable from Gordon and Gant due to the trial court's
factual finding of potential danger to the evidence .
4 . On June 10, 2016, the Government's Answering Brief was
filed . Dkt . 60.
5 . By l etter dated June 20, 2016, appellate couns el
informed Gordon that she had waived his right to file a Reply
Brief without his consent by the attached letter to the Clerk
of the Court of Appeals, Ninth Circuit of the same date . By

I 2-

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 13 of 39
25

PageID #:

way of explanation, counsel stated in pertinent part: "The
focus of a reply brief would be responding to additional
issues raised in the AB. The government raised no additional
issues in their AB, and responded directly to our issues using
the same case law. The government made no concessions and
responded to each issue in the opening brief - - their failure
of which could have been grounds to file a reply brief ."
(Gordon Affidavit, # 5 , Exhibit 1).
6. Neither before that waiver or at any other time during
her representation of Gordon did his appellate couns e l call
him or otherwise speak with him.

(Gordon Affidavit, # 6 ) .

7.Gordon's attorney wrote him by letter . dated April 6,
2017, that oral argument in the qase had been set for June 14,
2017 at 9:00 a.m.

(Gordon Affidavit, # 7, Exhibit 2 )

8. By letter dated April 12, 2017, Gordon wrot e appellate
counsel asking if he wo uld be allowed to attend the oral
argument and informing her about an Arizona case which he
thought might b e useful in his case.

(Gordon Affidavit, # 8,

Exhibit 2 ) .
9. By letter dated April 18, 2017, appellate counsel
responded that incarcerated inmates such as Gordon are not be
entitled to attend oral argument and that the case from
Arizona was on point with "the point we raise in the appeal
but through federal case law. Nonetheless, I appre ciate your
assistance . "
Gordon Affidavit, # 9, Exhibit 3).
9. By her next letter dated June 1, 2017, appellate counsel
informed Gordon that without his consent, she had waived his
right to the oral argument he had asked t o attend as follows:

/3

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 14 of 39
26

PageID #:

"Enclosed please find the Ninth Circuit's decision
concerning the recent motion I filed seeking to have the
appeal decided on the briefs, and without oral argument .
As you can see, the court's decision was unanimous that
the decisional process would not be significantly aided by
oral argument . Therefore, the court granted the motion.
At this point, there is nothing further to do.

11

•••

(Gordon

Affidavit, # 10, Exhibit 4).
10. By letter dated July 25, 2017, counsel forwarded the
Decision o f the Court of Appeals to Gordon and stated in
pertinent part:

11

(i)

it is my conclusion that further

appellate preceedings will not bring about the desired result,
which is a further reduction of your sentence . " (ii) There are
several options available : 1. within 14 days of the Decison, a
petition for a rehearing before the panel of three judges who
rendered the decision; 2.

within 14 days of the Decison, a

petition for a rehearing en bane before the full Ninth
Circuit, and/or; 3 . within 90 days of the Decision, a petition
for a writ of certiorari to the U.S. Supreme Court.

(Gordon

Affidavit, # 11. Exhibit 5).
11. As to each of the three opt ions, counsel informed
Gordon that "I do not believe meritorious, non-frivolous
grounds exist for further appellate review of the Decision."
(Gordon Affidavit , # 12, Exhibit 5).
12. Specifically as to Panel Rehearing,
Gordon that "a party should

counsel informed

seek a panel rehearing only id

one or more of the following grounds exist: a material point
off act or law was overlooked in the Decision; a change in the
law occurred after the case was submitted which appears to

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 15 of 39
27

PageID #:

have been overlooked by the panel; or an apparent conflict
with another decision of the Court was not addresses in the
opinion. Parties are expressly precluded from filing a
petition for panel rehearing merely to reargue the case. After
carefully reviewing

the Decision I have determined that none

exist to establish rehearing.

(Gordon Affidavit# 13, Exhibit

11

5)

13. Specifically as to rehearing en bane, counsel informed
Gordon that

11

a party should seek en bane rehearing only if one

or more of the following grounds exist : consideration by the
full court is necessary to secure or maintain uniformity of
the Court's decisions; or the proceeding involves a question
of exceptional importance; or the opinion directly conflicts
with an existing opinion by another court of appeals or the
Supreme Court and substantially affects a rule of national
application in which there is an overiding. need for national
uniformity. Again, I have reviewed the Decision with respect
to these options, as well as review of k e y cases in our
briefs, and the case law in the Decision . In my considerable
efforts to formulate lega l grounds for further appellate
review, I see no supportive legal grovnds that will overcome
the Court's legal conclusions.''

(Gordon Affidavit, # 14,

Exhibit 5). ·
14 . As to a petition for a writ of certiorari to the United
Staes Supreme Court, counsel informed Gordon that in addition
to finding

11

no grounds for seeking Supreme Court review that

are non-frivilous and consistent with the standards for filing
a petition [for writ of certiorari] . . . I am only permitted to
petition the Supreme Court for certiorari

/5

11

if in counsel's

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 16 of 39
28

PageID #:

considered judgment sufficient grounds exist for seeking
Supreme Court review .... I see no sufficient grounds.

11

(Gordon

Affidavit, # 15, Exhibit 5).
15. In conclusion, counsel informed Gordon:

11

I regret that

more could not have been done on your appeal. Please let me
know immediately whether you intend to file a pro se petition
for certiorari, since I will need to file a motion to
withdraw."

(Gordon Affidavit, # 16, Exhibit 5).

16. Exhibit 5 did not contain a request for immediate
notice if Gordon wanted a petition for rehearing by the panel

'

or a petiton for rehearing en bane to be filed within the 14
day deadline from July 24, 2017 .

(Gordon Affidavit, # 17,

Exhibit .5) .
17. Gordon never demonstrated any conduct to lead appellate
counsel to reasonably believe that he would agree to counsel's
waiver of the opportunity to file a Reply Brief. If Gordon had
been consulted he would have instructed counsel to file a
Reply Brief.

(Gordon Affidavit, # 18).

18. Gordon never demonstrated any conduct that could have
reasonably be interpreted by counsel that he would agree to· a
waiver of oral argument and such waiver ignored Gordon's
April 12, 2016 letter expressing his desire to be present at
oral argument. If Gordon had been consulted he wouls have
demanded that counsel attend oral argument.

(Gordon Affidavit,

# 19) .
19. Gordon never demonstrated any conduct which appellate
counsel could have reasonably interpreted as support for her
statement that the "desired result" of the appeal was a
reduction in Gordon's sentence. Indeed, that sentence

/6

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 17 of 39
29

PageID #:

indicates that Exhibit 5 which counsel sent Gordon was a
standard template that was poorly edited and did not represent
the result of a purported thorough review of the post Decision
options based on the record in Gordon.
(Gordon Affidavit, #

20).

20. Gordon expected that appellate counsel would
vigourously forward his defense at each and every opportunity
so that the judicial process would work to require exclusion
of the evidence obtained from the unconstitutional search here
at issue.

(Gordon Affidavit, # 21

) .

21. If counsel desired to assist Gordon and to in fac t
determine what he expected of h er , i.e.,

whether h e would

waive any right or opportunity to advance his defense on any
issue notwithstanding his decison not to waive his right to a
trial by jury , she should have arranged through existing
c hannels to discuss those matters by phone and her failure to
do so deprived Gordon of his Sixth Amendment Right to the
effective assistance of counsel at each important stage of the
appellate process except for the arguably competent but
deficient opening brief.
(Gordon Affidavit, # 22).
22. At the time he received Exhibit 5, Gordon did not
understand that he had a better chance for success as to the
three options presented for further filings through a Pe tition
for Rehearing and/or a Petition for Rehearing in Banc as
compared to a Petition for Writ of Certiorari or sufficient
knowledge or time as to how to write either petition to the
Court of Appeals . If he had been consulted, Gordon would have
instructed counsel to seek both panel rehearing and en bane

17

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 18 of 39
30
rehearing .

PageID #:

(Gordon Affidavit , # 23).

23 . Gordon did file a prose Petiton for Writ of Certiorari
because he recieved the forms to do so from appellate counsel
wi th instructions .

and it was denied.

24) .

If

(Gordon Affidavit, #

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 19 of 39
31

PageID #:

IV. GANT'S HOLDING COUPLED WITH SETTLED PRINCIPLES OF STARE
DECISIS REQUIRED THAT GANT ' S HOLDING AND MODE OF ANALYSIS BE
APPLIED IN GORDON AND REQUIRED THAT THE EVIDENCE FOUND IN
GORDON'S BAG BE SUPPRESSED AS THE PRODUCT OF AN
UNCONSTITUTIONAL WARRANTLESS SEARCH INCIDENT TO ARREST.

A. The Supreme Court granted the Gant Writ of Certiorari to
declare the boundaries of searches incident to arrest after an
arrest scene has been secured.

Rodney Joseph Gant ( "Gant " ) was arrested for driving on a
suspended li cense, handcuffed, and locked in a patrol car
before officers searched his car and found cocaine in a jacket
pocket . The Arizona tria l court denied his motion to suppress
the evidence, and he was convicted of drug offenses .
Reversing, the State Supreme Court distinguished New York v.
Belton, 453 U.S. 454 , 1 01 S. Ct. 2860, 69 L. Ed. 2d 768
(1981)-which held that police may search the passenger
compartment of a vehicle and any containers therein as a
contemporaneous incident of a recent occupant ' s lawful arresto n the ground that it concerned the scope of a search
incident to arrest but did not answer the question whether
o ffice rs may conduct such a search once the scene has been
secured. Because Chimel v. California, 395 U.S. 752, 89 S . Ct .
2034, 23 L. Ed. 2d 685 (1969), requires that a search incident
to arrest be justified by either the interest of officer
safety or the interest . in preserving evidence and the
circumstances of Gant ' s arrest implicated neither of those
_interests, the State Supreme Court found the search

11

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 20 of 39
32

PageID #:

unreasonable . Gant, at 489-490.
The Supreme Court granted Certiorari and held

11

that the

Chimel rationale authorizes police to search a vehcle incident
to a recent occupant's arrest only when the arrestee is
unsecured and within reaching distance of the passenger
compartment at the time of the search.

11

at 496.

Thus, the gov erning test in all circuit courts as to the
boundaries of a lawful warrantless search incident to arrest
WHERE THE SCENE HAS BEEN SECURED (EMPHASIS ADDED) is set _forth
with clarity in Arizona v. Gant, 556 US 332, 129 S. Ct. 1710,
173 L Ed 485 (2009). In announcing that test, the Court
restated its holding in Chimel v. California, 395 US 752, 89
S. Ct. 2034, 23 L. Ed. 2d 685 (1969) that "a

search incident

to arrest may only include "the arrestee ' s person and the
"area within his immediate control"-construing that phrase to
mean the area from within which he might gain possession of a
weapon or destructible evidence . " Ibid. That limitation, WHICH
CONTINUES TO DEFINE THE BOUNDARIES OF THE EXCEPTION (emphasis
added) , ensures that the scope of the search incident to
arrest is commensurate with its purposes of protecting
arresting officers and safeguarding any evidence of the
offense of arrest that an arrestee might conceal or destroy ...
IF

THERE IS NO POSSIBILITY THAT AN ARRESTEE COULD REACH INTO

THE ARREST AREA THAT LAW .ENFORCEMENT SEEK TO SEARCH, BOTH
JUSTIFICATIONS FOR THE SEARCH -INCIDENT TO ARREST ARE ABSENT
AND THE RULE DOES NOT APPLY (emphasis added) .

In this case, both the trial court and the

11

court of

appeals failed to follow the clear Supreme Court precedent

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 21 of 39
33

PageID #:

stated above and instead utilized circuit court decisions
which themselves overstepped the Gant

11

continuing boundaries'

to reach results which impermissably ignore the doctrine of
stare decisis which requires the circuit courts to apply both
·the holdings and mode of analysis of the Supreme Court in all
cases. Allegheny County, supra. Unlike the Supreme Court,
district court and circuit court judges are compelled to
follow Supreme Court decisions whether they believe that
court 's rationale no longer withstands "careful analysis 11 or
otherwise. Lawrence v. Texas, 539 U.S. 558, 577, 123 S . Ct.
2472, 156 L. Ed. 2d 508 (2003), Gant at 499. County of
Allegheny, supra. As the Ninth Circuit proclaimed en bane in
its decision in Miller v. Gammie, 335 F . 3d 889, 900 (2003):
THE UNDERLYING PRINCIPLE [o f Stare Decisis] HAS BEEN MOST
NOTABLY EXPLICATED BY JUSTICE SCALIA IN A LAW-REVIEW ARTICLE
DESCRIBING LOWER COURTS AS BEING BOUND NOT ONLY BY THE
HOLDINGS OF HIGHER COURTS' DECISIONS BUT ALSO BY THEI R 'MODE
OF ANALYSIS.' ANTONIA SCALIA,

'THE RULE OF LAW AS A LAW OF

RULES, 56 U. CHI. L. REV. 1175,1177 (1989). JUSTICE KENNEDY
EXPRESSED THE SAME CONCEPT IN TERMS OF A DEFINITION OF STARE
DECISIS IN COUNTY OF ALLEGHENY V. ACLU GREATER PITTSBURGH
CHAPTER, 492 U. S. 573, 106 L. ED. 2D 472, 109 S. CT.
(1989) .

3086

'AS A GENERAL RULE, THE PRINCIPAL OF STARE DECISIS

DIRECTS US TO ADHERE NOT ONLY TO THE HOLDINGS OF OUR PRIOR
CASES, BUT ALSO TO THEIR EXPLICATIONS OF THE GOVERNING RULES
OF LAW.' ID

AT 668

(KENNEDY, J. , CONCURRING IN PART AND

DISSENTING IN PART) .

B. Application of the Gant mode of analysis and Hol ding

:A l

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 22 of 39
34

PageID #:

requires that Gordon 1 s motion to suppress be granted.

Applying Gant to the facts in Gordon as found by the
trial court, it is undisputed that at the time of the search,
Gordon could not have accessed his duffel bag to obtain a
weapon, destroy evidence, or for any purpose

whatsoev~r

as he

was handcuffed and surrounded by several officers and law
enforcement had control Df the bag. Thus, the predicates to
the application of the exception being wholly absent, the
search in Gordon violated Gordon 1 s Fourth Amendment right to
be free from unreasonable searches. This violation required
exclusion of the evidence found in the bag.
To support its decision, the Court of Appeals, citing
United States v. Camou, 773 F. 3d 932, 938

(9th Cir. 2014)

(quoting United States v. Smith, 389 F . 3d 944, 951 (9th Cir .
2004[pre-Gant], stated that

11

Law enforcement agents searched

the duffel bag within seconds of Gordon being handcuffed . It
was therefore

11

thus lawful.

To the contrary, the only thing the cited fact

11

roughly contemporaneous with the arrest 11 and

establishes is that the warrantless search was incident to
arrest. The subject statement has no logical connection to the
only relevant legal inquiry under Gant ' s holding and
analysis 11

,

11

mode

of

i . e . , could the arrestee reach the evidence to

obtain a weapon or destroy evidence at the time of the search.
Here, the trial court answered the required question of fact:
NO. That finding required suppression of the evidence found in
the duffel bag and foreclosed other modes of ana lysis. The
error here is · plain.
Next, the court of appeals cited U. S. v. Cook, 797 F.

3d

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 23 of 39
35
713 (9th Cir. 2015)
(

11

PageID #:

in support of its decision as follows:

upholding search of a backpack after a suspect was

handcuffed where there were reasonable security concerns")
Cook is clearly inapposite to the facts in Gordon as no such
concern existed. Gant permits the search in cook based on the
factual finding that "reasonable security concerns" existed.
Here, the trial court found as a fact that:
11

The Government does n ot dispute that Gordon was under

custody and control of law e nforcement when Agent Rumschlag
initi ally searched the bag . Gordon o ffered no resistance to
the arrest , and was surrounded by several officers . The
te~tifying

witnesses did not observe any other persons at the

scene that they deemed to be potential threats. Weapons were
neither. observed at the scene or found in the bag.

11

Next, the Court of Appeals cited United States v. Nohara, 3
F. 3d 1239, 1243

(9th Cir . 1993)

[pre-Gant],

("upholding a

search of a bag two to three minutes after the suspect was
handcuffed and seated in an apartment h a llway . ) . Clearly, the
quoted claimed supportive language of Nohara is irreconcilable
with the holding and mode of reasoning of Gant. Thus, it does
not support affirming of the t rial court ' s decision not to
suppress the evidence found in the bag in violation of the
Fourth Amendment.
Finally, the Court of Appeals attempts to distinguish Gant
by stating that "Unlike the suspect in Gant, Gordon was
"within reaching distance" of the duffel bag when it was first
searched.

11

556 U.S. 332, 351(2009) . This rat i onale , or "mode

of analysis ' is irreconcilable with Gant ' s holding and
ana l ysis (the issue is l ack of reasonable access not distance)

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 24 of 39
36

PageID #:

as it ignores the again quoted message of Gant:

IF

THERE IS NO POSSIBILITY THAT AN ARRESTEE COULD REACH

INTO THE ARREST AREA THAT LAW ENFORCEMENT SEEK TO SEARCH, BOTH
JUSTIFICATIONS FOR THE SEARCH -INCIDENT TO ARREST ARE ABSENT
AND THE RULE DOES NOT APPLY (emphasis added) .

Additionally, the

11

within reaching distance 11 quotation

ignores the factual finding that:

11

The Government does not dispute that Gordon was under

custody and control of law enforcement when Agent Rumschlag
initially searched the bag. Gordon offered no resistance to
the arrest, and was surrounded by several officers. The
testifying witnesses did not observe any other persons at the
scene that they deemed to be potential threats. Weapons were
neither observed at the scene or found in the bag.

11

The trial court's legal conclusion likewise fails to
follow

and apply the holding and mode of analysis required by

Gant . Instead, in support of its Decision, the trial court
cited the Ninth Circuit cases of United States v. Turner, 926
F . 2d 883, 887 (9th Cir . 1991) and United States v. Maddox,
614 F . 3d 1046, 1048 (9th Cir. 2010) . This was clear error
because the test applied in

Turner and Maddox both

conditioned the constitutional validity of the search based on
the circumstances existing AT THE TIME OF ARREST, and not AT
THE TIME OF THE SEARCH AFTER THE SCENE WAS SECURED as required

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 25 of 39
37
by Gant.

PageID #:

(emp hasis addded). One need only read the Gant

Court's reason for accepting ce rtiorari discussed above and
the o ft q u oted language limiting a lawful search incident to
arrest after t h e scene is secured to the Chimel fac t o rs to
recognize the f l aws in the tria l court ' s Decision notto
suppress the evidence fo und in the duffel b ag .
The trial court's avoidance of Gant based on c irc uit court
d ecisions to support its Decision illustrates just how
import ant it was for Gordon's appe llate counsel to seek
rehearing before the panel and en bane as :
II

consideration by the full court is nec essary t o s ecure or

maintain uniformity of t h e Court ' s decisions; or t h e
proceeding involve s a questi o n o f exceptiona l

importan ce ; or

the op inion directly confli c ts with an existing opinion by
anothe r court of appeals or the Supreme Court and
substantially a ffe cts a rule of national application in which
the re is an ove riding n eed f o r national unifo rmi ty. " (Ninth
Circuit Rule 35-1 t o 3) .
The warrantless search of the duff el bag was n ot a c lose
call under Gant . It was a clear v iolation of the h ol ding and
mode of analysis of Gant and this motion t o undo t h e injus ti ce
of that v i o lation should be gran ted .

C. The f a i l ure t o suppress the evidenc e found in the duf fel
bag was not harml e ss beyond a reas onable d oubt .

An error is harmles s if "it is more probable than not that
the error did not materiall y affect the verdic t . United States
v. Seschillie , 310 F . 3 d 1208 , 1214,

(9th Cir . 2002). cert .

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 26 of 39
38
denied, 538 U.S. 953, 123

PageID #:

S. Ct. 1644, 155 L. Ed. 2d 500

(2003) . The government bears the burden of persuasion and "we
must reverse ... unless it is more probable than not" that the
error was harmless." Id., at 1215.
The evidence in the bag was the most significant evidence
tying Gordon to the alleged criminal conspirary and was thus
obviously material to the verdict . Additionally, this
contention was raised in Gordon's Opening Brief and the
Government did not contest this argument in its Answering
Brief and is thereby deemed to have admitted it.

V. GORDON DID NOT RECEIVE EFFECTIVE ASSISTANCE OF COUNSEL ON
APPEAL BECAUSE HIS COUNSEL LEFT GORDON WITHOUT COUNSEL AT
CRITICAL STAGES OF THE APPELLATE PROCESS AND THEREBY RENDERED
THE PROCESS AND THUS ITS RESULT PRESUMPTIVELY AND ACTUALLY
UNRELIABLE.

A . The Sixth Amendment right to the effective assistance of
counsel attaches to appellate proceedings and is tested by the
same standards that apply to trial couns e l.

The Sixth Amendment to the U.S. Constitution states in
pertinent part that :
"In all criminal prosecutions, the accused shall enjoy
the right .. to have -the Assistance of Counsel for his defense.
Strickland v . Washington, 466 U.S. 668, 685, 80 L. Ed 2d 674,
104 S. Ct. 2052

(1984) .

***
"The right to counsel plays a crucial role in the

11

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 27 of 39
39

PageID #:

adversarial system embodied in the Sixth
Amendment, since access to counsel ' s skill and knowledge is
necessary to accord defendants the "ample opportunity to meet
the case of the prosecution" to which it is entitled.
[citations omitted]

Id at 685.

***
''The Sixth Amendment recognizes the right to the ass i stance
of counsel because it envisions counsel's role that is
CRITICAL TO THE ABILITY OF THE ADVERSARIAL SYSTEM TO PRODUCE
JUST RESULTS.

(emphasis added) .. .

***
'' The principles governing ineffectiveness claims should
apply in federal collateral proceedings as they do on direct
appeal or in motions for a new trial ... An ineffectiveness
claim . . , as our articulation of the standards that govern
decision of such claims makes clear, is an attack on the
fundamental fairness of the proceeding whose result is
challenged. Since fundamental fairness is the central concern
of the writ of habeous corpus,

[citation omitted], no special

standards ought to apply to ineffectiveness claims made in
habeous proceedings. Id at 697-698 .

B. Appellate Counsel's representation fell below the
objective standard of reasonableness enunciated in
Strickland.

In Strickland, the court held that the first prong of the
test for ineffective assistance of counsel is a showing that
counsel ' s representation "fell below an objective standard of

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 28 of 39
40

PageID #:

reasonableness. at 687-688. ''
***

"The proper measure of attorney performance remains simp l y
reasonableness under prevailing professional norms .''

Id. at

688 . Applying several of the norms addressed in Strickland to
Gordon ' s appellate counsel ' s act i ons and inactions
demonstrates her

pe~formance

falls below the objective

standard of reasonableness.
In identifying some of t.he basic duties of defense counsel,
the court stated that "from counsel ' s function as assistant to
the defendant derive the OVERARCHING DUTY TO ADVOCATE THE
DEFENDANT'S CAUSE and the more particular duties to

CONSULT

WITH THE DEFENDANT ON IMPORTANT DECISIONS ... Counse l also has
the duty to bring to bear such skill and knowledge as will
render the [proceeding] a reliable adversarial testing
process.

[citation omitted] Id at 688 .. " IN ORDER TO INSURE

THAT RELIABLE TESTING PROCESS, VIGOROUS ADVOCACY OF THE
DEFENDANT'S CAUSE MUST BE EXHIBITED IN EACH CRITICAL STAGE OF
THE PROCEED ING.

(enphasis added). id at 688-689.

Appellate counsel failed to perform either

of the two

basic duties of effective counsel identified in Strickland.
First, Gordon's Opening Brief competently argued that Gant
required suppression of the duffel bag and its contents.
However, it failed to argue that (i) Gant requires l ower
court's to apply its mode of analysis, i.e. looking to the two
Chimel factors as the boundaries which must be met to
legi timize a warrantless search incident to arrest after the
scene of arrest is secured;

( ii ) the trial court ' s reliance on

Cook, Maddox , Turner and Nohara improperly failed to apply

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 29 of 39
41
Gant 1 s mode of analysis or holding;

PageID #:

(iii) Cook 1 s facts are

clearly distinguishable from Gordon and Gant due to the trial
court 1 s fa ctual finding of potential danger to the evidence.
While advocacy is in part an art, Gant was and is Gordon 1 s
great Fourth Amendment standard bearer as to a warrantless
search incident to arrest where the scene i s secured as it
was in Gordon. The boudaries set in Gant restricting such
searches is the reason the court accepted certiorari of the
case. The Opening Brief did not even mention the terms
of analysis 11 and

11

stare decisis 11 or

11

11

mode

irreconcilabl e 11 when

control of the scene was the key to victory and a block to the
trial court 1 s reasoning. However, these omiss i ons did not rise
to the level of ineffective assistance of prejudicial
magnitude until counsel completely abandoned any further
advocay on appeal.
More specifically, the Government 1 s Answering Brief cites
Maddox and Turner 1 s version of the test to determine whether a
search incident to arrest is valid. AB at 16 - 17 . That test is
irreconcilable with Gant. The first prong of the inquiry under
Turner, a 1990 decison, as applied in the post Gant . Maddox
opinion, was whether the searched item was within the
arrestee 1 s immediate control when he was ARRESTED. Under Gant,
11

the Chimel rationale authorizes police to search a

[container] incident to a r e cent arrest only when the arrestee
is UNSECURED and within reaching distance of the [container]
at the time of the SEARCH. 173 L. Ed. 2d 485, 496.
Here, the trial court found that Gordon was secured, the
scene was not threatened and Gordon did not have access to the
duffel bag at the time of the search. That finding required

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 30 of 39
42

PageID #:

suppression of the items found in the duffel bag. Reasonably
competent counsel had to make that argument in a Reply Brief.
Next, the Government argued that the District Court 1 s
decision was correct even if Gordon was handcuff ed before the
search under Nohara. AB at 17. Again, Nohara is
irreconcilable with Gant and reasonably competent counsel
would have made that argument in a Reply Brief.
Next, the Government maintained that the District Court,
having viewed the totality of the circumstances, properly
concluded that the search of the duffel bag was lawful as
incident to arrest without citation. AB at 17-18. From that
unsupported contention, the Government pointed to the
Stipulat i on that IF the first search was valid, the subsequent
search at the Federal Building was also valid. Of course, that
has nothing to do with whether the first search was valid and
the record establishes that it clearly was not as it does not
pass muster under Chimel and Gant. Again, that argument would
have been made by reasonably competent counsel in a Reply
Brief.
Unfortunately, appellate counsel decided after receiving
the Government 1 s Answering Brief that filing a Reply Brief
would be inappropriate and waived that right without Gordon 1 s
knowledge or consent. Based on this conclusion, by letter
dated June 20, 2016, appellate counsel informed Gordon that
she had waived his right to file a Reply Brief without his
consent by the attached letter to the Clerk of the Court of
Appeals, Ninth Circuit of the same date . By way of
explanation, counsel stated in pertinent part :

11

The focus of a

reply brief would be responding to additional issues raised in

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 31 of 39
43

PageID #:

the AB . The government raised no additional issues in their
AB, and responded directly to our issues using the same case
law. The government made no concessions and responded to each
issue in the opening brief-- their failure of which could
have been grounds to file a reply brief."

(Gordon Affidavit, #

5, Exhibit 1 ) .
The waiver of the right to file a Reply Brie f without the
client's consent was below the objective standard of
reasonableness under prevailing professional norms . FloresOrtega, 528 U.S . 478-79 . Indeed, as the facts cited herein
show, Gordon never gave any indicatio n that he would authorize
or approve any waiver of the opportunity .to forward his
defense. Additionally, the "mere presence of non - frivolous
issues to appeal[brief] is generally sufficient to satisfy the
defendant ' s burden to show prejudice. Id at 486 .
The implied proposition of counsel's letter that it would
h ave been improper to attack and criticize the reasoning and
authorit i es posited by the Government in a Reply Brief is by
itself resounding evidence of a judgment far below
professional n orms for appellate advocacy. This deficient bad
advice standing alone renders the result unreliable as counsel
failed at a critical stage to "render the [appeal] a rel iable
adversaria l testing process . " Id. at 688. As stated in
Gordon's affidavit and as evidenced by Gordon ' s decision to go
to trial and interest in suggesting authorities to counsel and
a desire to attend oral argument, Gordon would have wanted
counsel to file a Reply Brief on his behalf if he had
received reasonably competent advice on the subject .
All of the arguments under Gant forwarded in detail above

31

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 32 of 39
44

PageID #:

as to the flaws in the trial court 1 s Decision should have been
forwarded in the Rep l y Brief.
The next episode of ineffective assistance involves
counse l 1 s waiver of Gordon 1 s scheduled
letter dated Apri l

oral argument. By

12, 2017, Gordon wrote appellate counsel

ask i ng if he would be a l lowed to attend the oral argument and
informing her about an Arizona case which he thought mi ght be
useful i n his case.

(Gordon Affidavit, # 8, Exhibit 3 ) .

By letter dated April 18 , 2017, appellate counsel responded
that incarcerated inmates such as Gordon are not be entitled t
o attend oral argument and that the case from Arizona was on
point with

11

the point we ra i se in the appeal but through

federal case law. Nonetheless , I appreciate your assistance.

11

Gordon Affidavit, # 9, Exhibit 3).
By her next letter dated June 1, 2017, appellate counsel
informed Gordon that without his consent, she had waived his
right to the oral argument he had asked to attend as follows:
11

En~losed p l ease find the Ninth Circuit 1 s

decision

concerning the recent motion I filed seeking to have the
appeal decided on the briefs, and without oral argument.
As you can see, the court 1 s decision was unanimous that
the decisional process wou ld not be significantly aided by
oral argument . Therefore, the court granted the motion.
At this point , there is nothing further to do .

11

•••

(Gordon

Affidavit, #10, Exhibit 4).
The waiver of oral argument without client consent fell
be l ow the objective standard of reasonableness and deprived
the defendant of vigorous advocacy of his cause which was
required at this critical stage to

11

render the [appeal] a

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 33 of 39
45

PageID #:

reliable adversarial testing process." Stickland. at 688 . . As
described above, counsel's · client had voiced in writing an
interest in his cause being argued . His decision to go to
trial belied any inclination to give up any opportunity to
vind i cate his legal rights under the constitution. Here, there
is more than mere silence which alone would have been more
than enough to require that defense · counsel not waive the
opportunity for vigorous advocacy which oral argument allows.
The Court would not have placed the matter on the calendar for
argument if it deemed it purposeless.
In this regard,

it must be noted that counsel's

description to Gordon of the Court's order approving of the
waiver based on her unopposed self serving motion was
·disingenuous at best:
"As you can see, the court ' s decision was unanimous that
the decisional process would not be significantly aided by
oral argument.

Therefore, the court granted the motion."

(Gordon Affidavit, #10, Exhibit 4 ) .
Appellate counsel's reaction to the Decision of the Court
of Appeals reveals that she had long ago abandoned Gordon. A
reasonably competent counsel would have clearly understood
that the panel labeling the case a "close call" and one
Justice writing a separate concurring opinion that flat out
said he would have reversed the District Court and suppressed
the evidence found in the search

but for his view that Cook

required his af f irmance presented an excellent opportunity to
obtain review by the panel or en bane.
A reasonably competent appellate counsel would have and
should have been encouraged to pursue rehearing by the panel

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 34 of 39
46

PageID #:

and to the Court en bane. None of the Court's decisions had
recognized Gant's mode of analysis and holding as to a secured
arrest scene nor had stare decisis or irreconcilability been
addressed at all. These concepts were as the bible says, not
so far away that we can not see them. They are in Gant. They
touch the reasons why the Supreme Court took up Gant. Why it
sought to clarify Belton in response to

11

[t]he chorus that has

called for us to revisit Belton includ[ing] courts, scholars,
and Members of this Court who have questioned that decision's
clarity and fidelity to Fourth Amendment principles. at 492 .
Instead, by letter dated July 25, 2017,

counsel forwarded

the Decision of the Court of Appeals to Gordon and stated in
pertinent part:

11

(i) it is my conclusion that further

appellate preceedings will not bring about the desired result,
which is a further reduction of your sentence.''

[??]

Specifically as to Panel Rehearing, counsel informed Gordon
that "a party should seek a panel rehearing only if one or
more of the following grounds exist: a material point of fact
or law was overlooked in the Decision; a change in the law
occurred after the case was submitted which appears to have
been overlooked by the panel; or an apparent conflict with
another decision of the Court was not addressed in the
opinion. Parties are expressly precluded from filing a
petition for panel rehearing merely to reargue the case. After
carefully reviewing the Decision I have determined that none
exist to establish rehearing."

(Gordon Affidavit# 13, Exhibit

5)

Yet again, appellate counsel's advice does not meet
accepted norms. Clearly, "a material point of fact or law was

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 35 of 39
47

PageID #:

over l ooked in the Decision." The scene was secure; Gant
directly addressed that fact pattern; Gant's mode of analysis
and holding was not followed; the cited cases did not support
the Decision which is irreconcilable with Gant. These
contentions are not the product of "hindsight, to reconstruct
the circumstances of counsel ' s challenged conduct. '' Gant
contained all of the concepts contained and argued in this
motion. They are and were readily apparent . There is no excuse
for not beating the drum of Gant to the last breath under the
facts of this case and the motivation of the Decision's lack
of supportive authority or panel consensus .
Specifically as to rehearing en bane, counsel informed
Gordon that "a party should seek en bane rehearing only if one
or more of the "following grounds exist : consideration by the
full court is necessary to secure or maintain uniformity of
the Court ' s decisions; or the proceeding involves a question
of exceptional importance; or the opinion directly conflicts
with an existing opinion by another court of appeals or the
Supreme Court and substantially affects a rule of national
application in which there is an overiding need for national
uniformity. Again, I have reviewed the Decision with respect
to these options, as.well as review of key cases in our
briefs, and the case law in the Decision .

In my considerable

efforts to formulate legal grounds for further appellate
review, I see no supportive legal grounds that will overcome
the Court's legal conclusions. "

(Gordon Affidavit, # 13,

Exhibit 5) .
Consistently, counsel gave advice to Gordon that was
scarily below accepted norms. Gordon's case met several of the

•

I\

\

I

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 36 of 39
48

PageID #:

extremely difficult criteria to obtain en bane rehearing. I t
was and i s in practical terms a dream opportunity for an
attorney representing a criminal defendant on appeal to get a
case with ·cons titut iona l nati onal importance with a record
showing clear disregard or misreading of governing Supreme
Court authority and underlying decisions that are eas ily
argued as unsupportable (because they are irreconcilable with
Gant and Allegheny) .
As demonstrated above, Gordon's case involves a question
of exceptional importance [the scope of the exception fo r
searches incident to arrest after the scene o f arrest is
secure]; or the opinion directly conflicts with an existing
opinion by another court o f appeals or the Supreme Court
[here, Gant and Allegheny] and substantially affects a rul e of
national application in which there is an overiding n eed for
national uniformity [the scope of the exception for searches
incide nt to

arrest after the scene of arrest is secure ] .

From Gant , a case that is arguably the most important search
and seizure authority since Chimel in 1967 , appellate counsel
found not hing t o argue · in Reply or at ora l argument. She
advised Gordon after receipt o f the Ninth Ci r cuit ' s Dec ision
that appellate review had no chance of success and would be
fri volous when under controlling authority from the United
States Supreme Court, further argument had at least a
reasonable probabilty of success. By these failure s o f
omission, appellate counsel fell far below an objective
standard of reasonableness which left Gordon without effective
assistance of counsel at critical stages of the appellate
process. Based on the facts and the law, a reasonable

f

I

\

•11

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 37 of 39
49

PageID #:

probability of success on appeal but for the omissions exists
which is a probablity sufficient to undermine confidence in
the outcome. The breakdown of the adversary process in this
case renders the result unreliable.

C. A probability sufficient to undermine confidence in the
reliability of the outcome is evident from the record and
requires reversal.

Under Strickland, in addition to establishing the
ineffective assistance of counsel,

" the

defendant must show that there is a reasonable probability
that, but for counsel's unprof essional errors, the result of
the proceeding would have been different . A reasonable
probability IS A PROBABILITY SUFFICIENT TO UNDERMINE
CONFIDENCE IN THE OUTCOME . " AT 80 L. Ed . 2d at 698 .
As Strickland teaches,

'the ultimate focus of inquiry must

be on the fundamental fa irness of the proceeding whose result
is being challenged . In every case the court should be
concerned with whether, despite the strong pressumption of
reliability, the result of a particular proceeding is
unreliable because of a breakdown in the adversarial process
that our system counts on to produce just results. Id. at 696.

Under Strickl and and Roe, the record shows

ineffective

assistance of counsel in waiving the right to fil e a Reply
Brief without consulting with or obtaining consent from Gordon
and notwithstanding the existence of non - fri vi lous available
argyments. This fai lure both presumtively and actual l y

'

• I

I

\.

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 38 of 39
50

PageID #:

undermined the reliability of the appellate process.
Likewise, the record shows ineffective assistance of
counsel in waiving t he right to orctl argument without
consul t ing with or obtaining consent from Gordon and his
expressed interest in oral argument and notwiths tanding the
existence of non-frivilous available argyments . This failure
both presumtively and actually undermined the reliability o f
the appellate process . Thomas v. O ' Leary, 856
101 8

(1988).

F. 2d 1011,

( 11 0n the other hand, we do have a good idea of

the tremendous value of legal briefs and , in many cases, oral
argument, to appellate courts).
Additionall y, counsel's failure to seek rehearing either by
the panel or en bane represented a third serious waiver of
Gordon's right to vigorous advocacy without his consent based
on an incompetent evaluation of the viability of such recourse
in light of the lack o f pane l consensus and an o bj ec t i ve
reading of the facts of record and applicable law.
By these failures of omission , appellate counsel fell be l ow
an objective standard of reaso nableness which left Gordon
without effective assistance of counsel at critical stages of
the appellate process. Based on the facts and the law, a
reasonable probability of success but for those omissions
exists which is a probabli t y sufficient to undermine
confidence in the present outcome. The breakdown of the
adversary appellate process in this case was pervasive and
renders t he result unreliable.

Conclusion

Case 1:18-cv-00198-JMS-KSC Document 1-1 Filed 05/22/18 Page 39 of 39
51

PageID #:

For the reasons stated above, Gordon 1 s comviction should
be vacated, the trial court should be directed to (i) exclude
any evidence found in the duff el bag in any subsequent trial
or other proceeding,

(ii) order that Gordon be released from

custody pending any further proceedings on signature bond
only, and (iii) provide such other directions as appear
appropriate and consistent with those requested.
Dated this

day of May, 2018

Kenneth Scott Gordon
Pro Se
Copy of the foregoing
'mailed

this\~ day

of May

2018 to :

Clerk, U.S. District Court
U.S. Courthouse
300 Ala Moana Blvd., Room 338
Honolulu, HI 96813

APPENDIX F
Memorandum Decision
Filed July 24, 2017

Case: 13-10463, 07/24/2017, ID: 10518393, DktEntry: 76-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

JUL 24 2017

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

13-10463

D.C. No.
1:11-cr-00479-JMS-1

v.
KENNETH SCOTT GORDON,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the District of Hawaii
J. Michael Seabright, Chief Judge, Presiding
Submitted June 14, 2017**
Honolulu, Hawaii
Before: FISHER, PAEZ and NGUYEN, Circuit Judges.
Kenneth Scott Gordon was arrested and convicted for conspiring to
distribute and possessing with intent to distribute large quantities of
methamphetamine. The evidence against him largely came from a duffel bag and

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision without
oral argument. See Fed. R. App. P. 34(a)(2).

Case: 13-10463, 07/24/2017, ID: 10518393, DktEntry: 76-1, Page 2 of 4

wallet seized from his person at the time of his arrest and the testimony of a coconspirator, Richelle Higa. The jury returned a verdict of guilty. The district court
sentenced him to 164 months, denying Gordon’s request for a minor role
adjustment. Gordon timely appealed.
Gordon argues the district court erred by: (1) denying his motion to suppress
evidence from the duffel bag and wallet; (2) admitting a 35-second video;
(3) refusing to apply a minor role downward adjustment; and (4) imposing a
procedurally and substantively unreasonable sentence. We affirm.
First, the district court properly denied Gordon’s motion to suppress
evidence from the duffel bag and wallet. Law enforcement agents searched the
duffel bag within seconds of Gordon being handcuffed. It was, therefore, “roughly
contemporaneous with the arrest” and, thus, lawful. United States v. Camou, 773
F.3d 932, 938 (9th Cir. 2014) (internal quotation marks omitted) (quoting United
States v. Smith, 389 F.3d 944, 951 (9th Cir. 2004)); see also United States v. Cook,
808 F.3d 1195, 1197, 1199-1200 (9th Cir. 2015) (upholding search of a backpack
after a suspect was handcuffed where there were reasonable security concerns);
United States v. Nohara, 3 F.3d 1239, 1243 (9th Cir. 1993) (upholding search of a
bag two to three minutes after the suspect was handcuffed and seated in an
apartment hallway). Unlike the suspect in Arizona v. Gant, Gordon was “within
reaching distance” of the duffel bag when it was first searched. 556 U.S. 332, 351

2

Case: 13-10463, 07/24/2017, ID: 10518393, DktEntry: 76-1, Page 3 of 4

(2009). Although a close call, the initial search was lawful. Further, the district
court’s conclusion that the duffel bag remained in the uninterrupted control of law
enforcement was not clearly erroneous. Gordon points to no evidence that anyone
other than law enforcement had access to the duffel bag after he was arrested. As
to the wallet, Gordon stipulated that officers would testify the wallet was taken
from his person at the time of his arrest. He also stipulated that the wallet was then
transported to DEA headquarters. The district court properly relied on these
stipulations in finding the search of the wallet was lawful. See United States v.
Passaro, 624 F.2d 938, 944 (9th Cir. 1980).
Second, the district court did not abuse its discretion by admitting a 35second video. A DEA agent testified the video was made on the day of Gordon’s
arrest, so a reasonable jury could conclude the erroneous time and date stamp was
due to technical error.
Third, the district court did not clearly err by concluding Gordon was not
entitled to a minor role adjustment. That Gordon was far less culpable than the
leaders of the conspiracy is not dispositive. Rather, the question is whether
Gordon’s behavior was substantially less culpable than the average participant,
including the other couriers. Gordon did not show his behavior was substantially
less culpable than average.
Fourth, the district court did not procedurally or clearly err by treating the

3

Case: 13-10463, 07/24/2017, ID: 10518393, DktEntry: 76-1, Page 4 of 4

$18,020 found in the duffel bag as drug money. The money was found in a
macadamia candy box, the method used to conceal the proceeds from drug sales.
Higa was not so incredible that the court could not believe her. In any event, as
Gordon concedes, the district court’s treatment of the $18,020 as drug money did
not affect his total offense level. The district court did not clearly err.
Fifth, Gordon’s sentence was substantively reasonable. The district court
properly considered the sentencing factors under 18 U.S.C. § 3553(a) and
concluded a “substantial sentence above the mandatory minimum” was
appropriate. That reasoning was not “(1) illogical, (2) implausible, or (3) without
support in inferences that may be drawn from the facts in the record.” United
States v. Hinkson, 585 F.3d 1247, 1262 (9th Cir. 2009) (en banc) (internal
quotation marks omitted) (quoting Anderson v. City of Bessemer City, 470 U.S.
564, 577 (1985)). Indeed, although Gordon’s sentence was lengthy, it was still two
years shorter than the lowest guidelines range sentence.
AFFIRMED.

4

Case: 13-10463, 07/24/2017, ID: 10518393, DktEntry: 76-2, Page 1 of 1

FILED
United States v. Gordon, No. 13-10463
PAEZ, J., concurring:

JUL 24 2017
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

I agree with the majority in full. I write separately only to clarify that I
would reverse the denial of the motion to suppress, in accordance with Arizona v.
Gant, 556 U.S. 332 (2009) and our decision in United States v. Camou, 773 F.3d
932 (9th Cir. 2014), if not for United States v. Cook, 808 F.3d 1195 (9th Cir.
2015). On similar facts as here, the court in Cook concluded that the dual purposes
of the search-incident-to-arrest doctrine were sufficiently served to uphold the
search. Although, in light of Gant and Camou, I would not have concluded the
same, I view Cook as controlling here.

